Report No. D-2011-043                February 22, 2011





    Improvements Needed on the Fleet and Industrial 

   Supply Center, Sigonella, Ship Maintenance Contracts 

                     in Southwest Asia

Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
A&LM                  Acquisition and Logistics Management
COR                   Contracting Officer’s Representative
DASN                  Deputy Assistant Secretary of the Navy
DFARS                 Defense Federal Acquisition Regulation Supplement
FAR                   Federal Acquisition Regulation
FISCSI                Fleet and Industrial Supply Center, Sigonella
FMR                   Financial Management Regulation
IG                    Inspector General
IGCE                  Independent Government Cost Estimate
J&A                   Justification and Approval
MARAV                 Master Agreement for Repair and Alteration of Vessels
NSSA                  Norfolk Ship Support Activity
PGI                   Procedures, Guidance, and Information
QASP                  Quality Assurance Surveillance Plan
RCD                   Regional Contracts Department
U.S.C.                United States Code
                                  INSPECTOR GENERAL 

                                 DEPARTMENT OF DEFENSE 

                                    400 ARMY NAVY DRIVE 

                               ARLINGTON , VIRGINIA 22202-4704 




                                                                        February 22, 20 II

MEMORANDUM FOR NAVAL INSPECTOR GENERAL

SUBJECT: Improvements Needed on the Fleet and Industrial Supply Center, Sigonella,
         Ship Maintenance Contracts in Southwest Asia (Report No. D-2011-043)

We are providing this report for your review and comment. This is the fourth in a series
of reports on Army and Navy ship maintenance contracts. Navy contracting officials did
not provide adequate oversight of 14 contracts, valued at $35.3 million. In addition,
contracting officials did not adequately compete 90fthe 14 contracts or ensure complete
price reasonableness determinations were performed for 7 of the 14 contracts and for
36 contract modifications. We considered management comments on a draft of this
report from the Assistant Secretary of the Navy for Research, Development, and
Acquisition when preparing the final report . The Director, Program Analysis and
Business Transformation within the Office of the Assistant Secretary of the Navy for
Acquisition and Logistics Management responded for the Military Sealift Fleet SUppOlt
Command, the Fleet Industrial Supply Center Sigonella, and the Norfolk Ship Support
Activity Detachment Bahrain.

DoD Directive 7650.3 requires that recommendations be resolved promptly. The
comments from the Assistant Secretary of the Navy for Research, Development, and
Acquisition were partially responsive. Therefore, we request that the Officer in Charge,
Norfolk Ship Support Activity Detachment Bahrain, provid\; additional comments on
Recommendations B.2 and C.2, and the Commanding Officer, Fleet Industrial Supply
Center Sigonella, provide additional comments on Recommendations A.2, D.2.b and
D.2.c by March 24, 20 II .

Ifpossible, please send a .pdffile containing your comments to audacm@dodig.mil.
Copies of your comments must have the actual signature of the authorizing)<Jfficial for
your organization. We are unable to accept the ISignedl symbol in place ot the actual
signature. If you arrange to send classified comments electronically, you must send them
over the SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at (703)
604-9201 (DSN 664-920 I).




                                             Richard B. Jolliffe
                                             Assistant Inspector General
                                             Acquisition and Contract Management
Report No. D-2011-043 (Project No. D2009-D000AS-0163.002)                        February 22, 2011

               Results in Brief: Improvements Needed on the
               Fleet and Industrial Supply Center, Sigonella, Ship
               Maintenance Contracts in Southwest Asia
                                                       FISCSI contracting officers did not provide
What We Did                                            adequate contract surveillance for all 14 contracts.
We reviewed 14 contracts, valued at $35.3 million, This occurred because the contracting officers did
for Navy ship maintenance in Bahrain and the           not properly designate contracting officer’s
United Arab Emirates to determine whether              representatives or properly oversee personnel
competition, price reasonableness determinations, acting in the role of contracting officer’s
and quality assurance controls were appropriate        representatives. As a result, the Navy may not
and effective. We determined that Fleet and            have received the quality of ship maintenance and
Industrial Supply Center, Sigonella (FISCSI), did      repairs for which it contracted.
not properly manage or administer the contracts in
the areas of competition, price reasonableness, and FISCSI Detachments Bahrain and Dubai
surveillance in accordance with Federal and DoD        contracting officers incorrectly funded $4.1 million
regulations. This is the fourth in a series of reports of FY 2005 funds on contract actions with bona
on Army and Navy Ship maintenance contracts in fide needs from FY 2006 because only FY 2005
Southwest Asia.                                        funds were available. This caused a potential
                                                       Antideficiency Act violation.
What We Found                                             What We Recommend
FISCSI Detachments Bahrain and Dubai did not
adequately compete nine contracts, valued at              Among other actions, we recommend that the
$24.3 million, because the contracting officers did       Commanding Officer, FISCSI, adhere to
not properly justify limiting competition to Master       competition requirements in the Federal
Agreement for Repair and Alteration of Vessels            Acquisition Regulation for all future ship
holders. As a result, the contracting officers did        maintenance and repair contracts.
not execute the competition for the nine contracts
in accordance with the FAR and may have lost the          We also recommend that the Assistant Secretary of
benefits of competitive pricing.                          the Navy (Financial Management and Comptroller)
                                                          initiate a preliminary review of the potential
FISCSI Detachments Bahrain and Dubai                      Antideficiency Act violation to determine whether
contracting officers did not ensure that price            a violation occurred.
reasonableness determinations were properly
performed for 7 contracts, initially awarded for          Management Comments and
$16.2 million, and 36 contract modifications,             Our Response
valued at $2.7 million. This occurred because the         The Director, Program Analysis and Business
contracting officers did not complete or document         Transformation, DASN (A&LM), agreed with all
price reasonableness determinations. As a result,         of the recommendations. However, some of the
the contracting officers could not demonstrate that       Director’s comments were only partially
they obtained the best price for $18.9 million in         responsive. Therefore, we request additional
contracting actions.                                      comments by March 24, 2011. Please see the
                                                          recommendations table on the back of this page.

                                                      i
Report No. D-2011-043 (Project No. D2009-D000AS-0163.002)            February 22, 2011

Recommendations Table

          Management                   Recommendations      No Additional Comments
                                      Requiring Comment              Required
Assistant Secretary of the Navy                             D.1.a and D.1.b
(Financial Management and
Comptroller)

Director, Military Sealift Fleet                            C.3
Support Command
Commanding Officer, Fleet          A.2, D.2.b and D.2.c     A.1, A.3, B.1, C.1.a – C.1.c,
Industrial Supply Center                                    D.2.a
Sigonella

Officer in Charge, Norfolk Ship    B.2, C.2.a and C.2.b     D.3
Support Activity Detachment
Bahrain


Please provide comments by March 24, 2011.




                                             ii
Table of Contents
Introduction                                                                      1     


      Audit Objectives                                                            1

      Background on the Fleet and Industrial Supply Center and the Requiring 

           Activities                                                             1

      Requiring Activities                                                        2

      Internal Controls Not Effective for Competition, Price Reasonableness, 

           Contractor Oversight, and Funding                                      3


Finding A. Competition Was Inappropriately Limited                                4


      Criteria                                                                    4     

      Contracts Valued at $24.3 Million Improperly Competed                       5

      Conclusion                                                                  8     

      Recommendations, Management Comments, and Our Responses                     9


Finding B. Improvements Needed for Determining Price Reasonableness              11 


      Criteria                                                                   11     

      Inadequate Price Reasonableness for Seven Contracts                        12 

      Deficiencies in Independent Government Cost Estimates                      15 

      Inadequate Price Reasonableness for 36 Contract Modifications              16 

      Additional Mistakes in Price Reasonableness Memoranda                      20 

      Conclusion                                                                 20     

      Recommendations, Management Comments, and Our Responses                    21 


Finding C. Insufficient Contract Surveillance                                    23 


      Criteria                                                                   23     

      Three Requiring Activities                                                 24 

      Conclusion                                                                 27     

      Recommendations, Management Comments, and Our Responses                    27 


Finding D. Contract Actions for $4.1 Million Were Incorrectly Funded             30 


      Criteria                                                                   30     

      Contract Was Split and Renumbered Into Two Contracts                       31 

      Contracts for $4.1 Million Were Funded With the Incorrect Year Funding     32 

      Contract Signed Before Verifying the Availability of Funds                 33 

      Documents Missing From the Contract Files                                  34 

      Conclusion                                                                 34     

      Recommendations, Management Comments, and Our Responses                    35 

Table of Contents (cont’d)
Appendices

      A. Scope and Methodology                                                   38 

      B. Summary of Contract Information in Our Sample                           40 


Management Comments

      Assistant Secretary of the Navy (Research, Development, and Acquisition)   41 

Introduction
Audit Objectives
This is the fourth in a series of reports on the Army and Navy ship maintenance contracts
for Southwest Asia. The overall objective was to determine whether contracts providing
ship maintenance to Army operations in Kuwait and Navy operations in Bahrain and the
United Arab Emirates were properly managed and administered. The audit series
includes reports on Fleet and Industrial Supply Center, Sigonella (FISCSI), Detachment
Bahrain information security; the U.S. Army, Mission and Installation Contracting
Command-Fort Eustis; and the U.S. Naval Sea Systems Command. For this report, we
reviewed competition, price reasonableness, and contract oversight for 14 contracts
administered by the FISCSI Detachment Bahrain and FISCSI Detachment Dubai. See
Appendix A for a discussion of our scope and methodology.

We performed this audit pursuant to Public Law 110-417, “The National Defense
Authorization Act for Fiscal Year 2009,” section 852, “Comprehensive Audit of Spare
Parts Purchases and Depot Overhaul and Maintenance of Equipment for Operations in
Iraq and Afghanistan.” Section 852 requires:

               thorough audits to identify potential waste, fraud, and abuse in the
               performance of Department of Defense contracts, subcontracts, and
               task and delivery orders for (A) depot overhaul and maintenance of
               equipment for the military in Iraq and Afghanistan; and (B) spare parts
               for military equipment used in Iraq and Afghanistan.

Background on the Fleet and Industrial Supply Center
and the Requiring Activities
The contracting offices for all 14 contracts were at FISCSI Detachments Bahrain and
Dubai. FISCSI Detachments Bahrain and Dubai are part of FISCSI Detachment Naples.
FISCSI oversees the FISCSI Detachment Naples. The Commander, Fleet and Industrial
Supply Centers, reports to the Commander, Naval Supply Systems Command.

Commander, Fleet and Industrial Supply Centers
Under the Naval Supply Systems Command, the Commander, Fleet and Industrial Supply
Centers, functions as a global provider of integrated supply and support services to fleet
units and shore activities. The Commander, Fleet and Industrial Supply Centers, is
responsible for establishing common policies and procedures for the worldwide network
of seven Fleet and Industrial Supply Centers, including the Fleet and Industrial Supply
Center, Sigonella, Italy.

Fleet and Industrial Supply Center, Sigonella
FISCSI is located at the Naval Air Station Sigonella, Italy, and provides logistics,
business, and support services to the Navy, Coast Guard, and Military Sealift Command,


                                                 1

as well as other joint forces. FISCSI provides direct logistical support to various
locations including Dubai and Jebel Ali within the United Arab Emirates and Bahrain.
FISCSI oversees the FISCSI Detachment Naples which has detachments in London,
Bahrain, and Dubai to provide contracting support for U.S. Forces throughout Europe, the
Mediterranean, Africa, and Southwest Asia.

FISCSI Detachments Bahrain and Dubai
FISCSI Detachment Bahrain is located at the Naval Support Activity in Manama,
Bahrain. FISCSI Detachment Dubai is located in Dubai, United Arab Emirates. The
mission of FISCSI Detachments Bahrain and Dubai is to provide fleet support for U.S
Navy, Military Sealift, and Coast Guard ships operating in the 5th Fleet area of
responsibility as well as base support for naval installations in the Middle East. FISCSI
Detachments Bahrain and Dubai report to FISCSI Detachment Naples. The workforce at
FISCSI Detachment Bahrain consists of 3 Military Service members, 5 U.S. civilians,
and 12 foreign nationals. FISCSI Detachment Bahrain administered 10 contracts in the
sample,1 while FISCSI Detachment Dubai administered 4 contracts in the sample.

Requiring Activities
The three requiring activities for the 14 contracts are the Norfolk Ship Support Activity
(NSSA) Detachment Bahrain, the Military Sealift Command, and the Navy Expeditionary
Combat Command. NSSA Detachment Bahrain was the requiring activity for 12 of the
14 contracts. The Military Sealift Command and the Navy Expeditionary Combat
Command were the requiring activities for one contract each.

Norfolk Ship Support Activity, Detachment Bahrain
The Naval Sea Systems Command is in charge of the Norfolk Naval Shipyard that
oversees the NSSA. The NSSA mission is to provide industrial, engineering, technical,
and contracting services for maintenance and modernization of naval ships and crafts.
NSSA reports to the Norfolk Naval Shipyard and the Naval Sea Systems Command. The
Norfolk Naval Shipyard, located in Portsmouth, Virginia, specializes in repairing,
overhauling, and modernizing ships and submarines. NSSA, Detachment Bahrain, is a
requiring activity for FISCSI Detachment Bahrain.

Military Sealift Command
The Military Sealift Command, headquartered in Washington, D.C., delivers supplies and
conducts specialized missions across the world’s oceans. Within the Military Sealift
Command, the Military Sealift Fleet Support Command equips and maintains more than
40 ships owned and operated by the Military Sealift Command.

Navy Expeditionary Combat Command
The Navy Expeditionary Combat Command operates as a functional command providing
the Navy’s expeditionary forces with central management, including readiness,

1
 This is a judgment based sample of 14 FISCSI contracts that we selected based on geographical location
and high dollar value.


                                                   2

resources, training, and equipment. Under the Navy Expeditionary Combat
Command, the Maritime Expeditionary Security Force performs antiterrorism force
protection missions that include harbor and homeland defense, coastal surveillance, and
special missions. The Maritime Expeditionary Security Force supports 18 Navy
Expeditionary Combat Command patrol coastal boats in Dubai.

Basic Ordering Agreements and Basic Agreements
Thirteen of the 14 contracts were issued under basic ordering agreements and basic
agreements, and one contract was issued as a general contract. The Federal Acquisition
Regulation (FAR) states that basic ordering agreements and basic agreements are not
contracts and defines them as written negotiated agreements between the contracting
office and the contractor that contain the terms and clauses applying to future contracts.
Job orders are contracts issued under basic ordering agreements.

Internal Controls Not Effective for Competition, Price
Reasonableness, Contractor Oversight, and Funding
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses in the FISCSI Detachments Bahrain and Dubai related to competition, price
reasonableness determinations, funding, and surveillance and acceptance requirements.
See the audit findings for detailed information. Implementing recommendations in
Findings A, B, C, and D will improve FISCSI’s internal controls. We will provide a copy
of the report to the senior officials responsible for internal controls in the Department of
the Navy.




                                             3

Finding A. Competition Was Inappropriately
Limited
The FISCSI Detachments Bahrain and Dubai contracting officers did not properly
compete nine contracts, valued at $24.3 million. Specifically, the FISCSI Detachments
Bahrain and Dubai contracting officers incorrectly eliminated a contractor from
competition in six contracts and did not provide for full and open competition when
awarding three other contracts. This occurred because the FISCSI Detachments Bahrain
and Dubai contracting officers incorrectly used justification and approvals (J&As) and
improperly limited competition to Master Agreement for Repair and Alteration of
Vessels (MARAV) holders. As a result, the contracting office did not properly execute
the competition for the nine contracts in accordance with FAR requirements and may
have lost the benefits of competitive pricing.

Criteria
The FAR provides guidance on competition requirements to allow contracting officers to
appropriately perform contract award and make informed procurement decisions. The
14 contracts in the sample were solicited and awarded under two FAR parts: either
FAR Part 15, “Contracting by Negotiation,” or FAR Part 13, “Simplified Acquisition
Procedures.” Out of the 14 contracts we reviewed, 4 contracts were awarded using
FAR part 15, and 10 contracts were awarded using FAR part 13. Acquisitions under
FAR part 15 should use FAR Part 6, “Competition Requirements,” to award contracts.
However, acquisitions conducted under simplified acquisition procedures are exempt
from FAR part 6. See Appendix B for list of contracts and the FAR Part they were
solicited and awarded under.

Full and Open Competition
According to FAR Subpart 6.1, “Full and Open Competition,” contracting officers shall
provide for full and open competition through the use of competitive procedure(s) for all
acquisitions. When used with respect to a contract action, the FAR defines full and open
competition as permitting all responsible sources to compete for the contract. However,
FAR Subpart 6.3, “Other Than Full and Open Competition,” allows contracting officers
to award sole-source contracts without providing for full and open competition if an
exception found in FAR 6.302, “Circumstances Permitting Other Than Full and Open
Competition,” applies. FAR 6.301 “Policy,” states that each contract awarded without
providing for full and open competition shall contain a reference to the specific authority
under which it was awarded.

FAR 6.302-1, “Only one responsible source and no other supplies or services will satisfy
agency requirements,” states that full and open competition need not be provided when
unique supplies or services are available from only one source or a limited number of
sources with unique capabilities. Contracting officers using this authority to award
contracts are required to provide a written J&A.




                                             4

Competition Using Simplified Acquisition Procedures
FAR Subpart 13.5, “Test Program for Certain Commercial Items,” authorizes the use of
simplified acquisition procedures for the acquisition of supplies and services in amounts
greater than the simplified acquisition threshold but not exceeding $5.5 million.
Contracting activities must use the simplified acquisition procedures to the maximum
extent practicable.

FAR 13.104, “Promoting Competition,” states that the contracting officer must promote
competition to the maximum extent practical and obtain supplies and services from the
source whose offer is the most advantageous to the Government, while considering the
administrative cost of the purchase. It further states that the contracting officer must not
solicit quotations based on personal preference or restrict solicitation to suppliers of
well-known and widely distributed makes or brands. J&As are required under FAR
subpart 13.5 only for sole-source acquisitions.

Master Agreement for Repair and Alteration of Vessels Holders
Of the 14 contracts reviewed, 13 were issued under a MARAV. Defense Federal
Acquisition Regulation Supplement (DFARS) 217.71, “Master Agreement for Repair and
Alteration of Vessels,” states that a MARAV is a written instrument of understanding,
negotiated between a contracting activity and a contractor that contains contract clauses,
terms, and conditions applying to future contracts. A MARAV is not a contract, but
contemplates future contracts that will reference the master agreement. The FISCSI
Detachment Bahrain officer in charge provided us a list of three MARAV holders:
Bahrain Ship Building and Engineering Company, and Arab Ship Building and Repair
Yard, both located in Bahrain; and Dubai Drydocks, located in the United Arab Emirates,
as of March 29, 2009.

Contracts Valued at $24.3 Million Improperly Competed
Of the 14 contracts reviewed, contracting officials did not properly compete 9 contracts,
valued at $24.3 million. Specifically, for six contracts, valued at $11.5 million, the
contracting officer eliminated a contractor from the competition, and for three, valued at
$12.8 million, the contracting officer limited competition to MARAV holders, thereby
failing to provide for full and open competition.

Eliminating a Competitor
The FISCSI Detachment Bahrain contracting officers incorrectly eliminated a contractor
from competition during the award of six contracts, valued at $11.5 million. For four of
the contracts (N49400-07-G-A501-7081, N49400-07-G-A501-8038, N49400-07-G-
A501-8139, and N49400-07-G-A501-9045), the contracting officer eliminated a
contractor from the competition by issuing a J&A. According to the J&As contained in
the contract files, the same contractor was eliminated from competing because the cost of
lodging and per diem for the ships’ crew was more expensive if that contractor performed
the work due to the place of performance. Specifically, the J&As for three of the four
contracts cited the FAR exception that permits other than full and open competition when
unique supplies or services are available from only one supplier or a limited number of
suppliers with unique capabilities and no other type of supplies or services will satisfy


                                              5

agency requirements. The fourth contract that excluded the contractor from the
competition cited the FAR subpart 13.5 exception that permits sole source justifications
for acquisitions under the authority of the test program for commercial items. However,
as a MARAV holder, the Navy had already determined that the contractor had the unique
capabilities to perform the contract and had awarded contracts to the contractor in the
past. As a result, the contracting officer’s rationale cited in the four J&As to eliminate
the contractor did not meet FAR requirements for exceptions to full and open
competition.

For the other two contracts, rather than eliminating the contractor through a J&A, the
FISCSI Detachment Bahrain contracting officer limited competition to only two
competitors and excluded the contractor from the competition for contracts N49400-07-
H-A501-5059 and N49400-07-H-A501-5120. The contracting officer used a
memorandum from a former FISCSI Detachment Bahrain Legal Counsel to limit
competition for contract N49400-07-H-A501-5120.2 The basis of the June 8, 2004, legal
counsel memorandum was that a J&A is not required if a contractor is a MARAV holder.
However, the former FISCSI Detachment Bahrain Legal Counsel’s opinion was
inconsistent and unclear and did not provide a valid basis for its conclusion that a J&A
was not required. In response to our recommendation in DoD Inspector General
(DoD IG) Report No. D-2010-064, “Army Vessels Maintenance Contracts in Southwest
Asia,” May 21, 2010, the General Counsel, FISCSI Detachment Bahrain, withdrew the
memorandum on March 16, 2010.

FAR part 13 requires the contracting officers to promote competition to the maximum
extent practical to obtain supplies and services from the source whose offer is most
advantageous to the Government. FAR part 6 requires the contracting officer to provide
for full and open competition. As a result, the contracting officers should not have
prematurely eliminated the contractor from any of the six competitions but should have
considered the additional cost, if any, of doing business with the contractor during the
source selection phase of the contract award.

Limiting Competition to Only Master Agreement for Repair and
Alteration of Vessels Holders
FISCSI Detachments Bahrain and Dubai contracting officers did not provide for full and
open competition in accordance with FAR part 6 for three contracts (N49400-03-H-
A005-6002, N49400-03-H-A005-6007, and N49400-07-G-A600-7001). Documents in
the contract file indicated that the contracting officers solicited contract N49400-03-H-
A005-5002 to only the three contractors with MARAV agreements. Subsequently, the
contracting officers administratively split N49400-03-H-A005-5002 into contracts
N49400-03-H-A005-6002 and N49400-03-H-A005-6007 (see Finding D). Soliciting to
only MARAV holders did not meet the FAR requirements for full and open competition.
However, when providing for other than full and open competition, FAR subpart 6.3

2
 In DoD Inspector General Report No. D-2010-064, we refer to the memorandum as the Naval Regional
Contracting Command Legal Counsel Memorandum. FISCSI Detachment Bahrain was formerly known as
Naval Regional Contracting Command.



                                                6

requires the contracting officer to create a J&A for the contract. The contract file
indicated that a J&A was created for N49400-03-H-A005-5002, but the contracting
officer was unable to provide the document. As a result, N49400-03-H-A005-6002 and
N49400-06-H-A005-6007 did not have a J&A to support the decision to limit
competition. The contracting officer solicited these two contracts to only three
competitors without sufficient support for limiting the competition; consequently the
contracts were not properly competed. The contracting officers should have provided
other contractors the opportunity to submit proposals.

The contracting officer used a J&A to limit competition for contract N49400-07-G-A600-
7001 to only MARAV holders. The J&A cited FAR 6.302-1, which states that when the
supplies or services required by DoD are available from only one or a limited number of
responsible sources and no other type of supplies or services will satisfy the agency
requirement, full and open competition need not be provided for. However, the
justification provided did not justify why competition needed to be limited to MARAV
holders. By limiting competition to MARAV holders, the contracting officer did not
provide for full and open competition.

Specifically, the FAR and DFARS encourage competition even in situations where
contractors are prequalified for contract award such as in the case of MARAV holders.
FAR Subpart 9.2, “Qualifications Requirements,” states that if a potential offeror meets
or can meet the standards for qualifications (such as MARAV) before the date specified
for award of the contract, a potential offeror may not be denied the opportunity to submit
an offer for a contract solely because the potential offeror has not been identified.

Further, DFARS 217.71 states that when a requirement arises for the type of work
covered by a MARAV agreement, the contracting officer should solicit offers from
prospective contractors who previously executed a master agreement, or who have not
previously executed a master agreement but possess the necessary qualifications to
perform the work, and agree to execute a master agreement before award of a job order.
By limiting competition to only MARAV holders, the contracting officer prevented other
offerors from demonstrating their ability to accomplish the work and execute a MARAV
agreement. The contracting officer should provide for full and open competition in
accordance with FAR part 6 for all future ship maintenance and repair contracts, even
when work must be accomplished by a MARAV holder, so that additional sources of
competition can be identified and encouraged in accordance with the FAR and DFARS.

Instruction and Contracting Office Solicitation Practices Limit
Competition
According to the FISCSI Director of Contracting, the list of MARAV holders (which is
used to award contracts under both FAR parts 13 and 15) is updated in accordance with
Commander Service Force Sixth Fleet/Naval Regional Contracting Center Naples
(former name for FISCSI), Instruction 4280.2A, “Master Agreement for Repair and
Alteration of Vessels, Master Ship Repair Agreement and Agreement for Boat Repair,”
October 24, 2002. Instruction 4280.2A establishes policy, guidelines, and procedures
governing the MARAV program. It states that the MARAV program supports the



                                            7

maximum use of competition but recognizes that the U.S. Navy has a need for shipyards
with more sophisticated capability for managing larger ship repair projects.
Instruction 4280.2A does not require the Fleet Industrial Supply Centers, such as FISCSI
Detachment Bahrain, to identify potential MARAV contractors. The Instruction states
only that the Fleet Industrial Supply Centers may receive requests from prospective
MARAV contractors and further provides instructions on how to process the request.
FISCSI relies on contractors to self identify as a prospective MARAV contractor instead
of initiating market research for contractors capable of MARAV requirements.

FISCSI Detachment Bahrain contracting officers are not required to identify potential
MARAV contractors and routinely limit solicitation of contracts to the MARAV holders
on the list; consequently, FISCSI Detachment Bahrain contracting officers have created
an environment where non-MARAV contactors are unaware of work for which they
could bid or that they could become MARAV certified. The FISCSI Detachment Bahrain
contracting officers should identify potential MARAV contractors rather than wait for the
contractors to request certification to promote competition in accordance with
FAR 13.104, “Promoting Competition,” and FAR Subpart 6.1, “Full and Open
Competition.” In order to maximize competition, FISCSI should update Instruction
4280.2A to require Fleet Industrial Supply Centers to conduct market research to identify
new potential contractors.

Conclusion
The contracting officers did not comply with competition requirements during the
solicitation of nine contracts, valued at $24.3 million. The contracting officers limited
competition to known MARAV holders and did not seek to identify additional
competitors. FISCSI should perform market research to identify other potential MARAV
holders in the geographical area and provide full and open competition in accordance
with FAR part 6. The contracting officers should not eliminate a contractor from
competition prior to issuing the solicitation; instead, the contracting officer should solicit
to all MARAV holders when using FAR subpart 13.5 and provide for full and open
competition when using FAR part 6. The contracting officers should consider the cost of
doing business with each MARAV holder in the source selection process of contract
award instead of eliminating competitors before the solicitation.

Management Comments on the Report
The Director, Program Analysis and Business Transformation, Deputy Assistant
Secretary of the Navy for Acquisition and Logistics Management (DASN [A&LM]),
stated that the report reference to the “Commanding Officer, NSSA Detachment
Bahrain,” should be changed to the “Officer in Charge, NSSA Detachment Bahrain,” and
that the report should mention the period covered in the assessment.

Our Response
We changed Commanding Officer, NSSA Detachment Bahrain to Officer in Charge,
NSSA Detachment Bahrain. We reference the audit dates and contract award dates in
Appendix A.



                                              8

Recommendations, Management Comments, and Our
Response
A. We recommend that the Commanding Officer, Fleet and Industrial Supply
Center, Sigonella, direct the Fleet and Industrial Supply Center, Sigonella
Detachment Naples, and its Detachments in Bahrain and Dubai:

         1. Comply with competition requirements in the Federal Acquisition
Regulation Part 6, “Competition Requirements,” and Federal Acquisition
Regulation Part 13.5, “Test Program for Certain Commercial Items,” as applicable,
for all future ship maintenance and repair contracts even when work must be
accomplished by a Master Agreement for Repair and Alteration of Vessels holder,
so that additional sources of competition can be identified and encouraged.

Management Comments
The Director, Program Analysis and Business Transformation, DASN (A&LM),
responding for the Commanding Officer, FISCSI, agreed. The Director stated that the
FISCSI Regional Contracts Department (RCD) conducted internal reviews and
determined that personnel in the Bahrain and Dubai offices did not execute competition
properly. He also stated that FISCSI RCD concluded that personnel in the offices in
Bahrain and Dubai misunderstood DFARS guidance and failed to solicit to all possible
ship repair sources. The Director stated that before receiving the draft report, FISCSI
RCD, FISCSI Bahrain Office of General Counsel, and NSSA personnel met to discuss
competition requirements. The Director further stated that FISCSI RCD is revising the
local ship repair and MARAV policy memoranda to clearly explain the appropriate
competition requirements and processes for ship repair orders including those under
MARAVs. According to the Director, the revised policy memoranda will be issued by
March 31, 2011. The Director also stated that internal training on the requirements of the
Competition in Contracting Act3 and the updated policy memoranda will be provided to
FISCSI personnel by March 31, 2011, and April 15, 2011, respectively.

Our Response
The Director, Program Analysis and Business Transformation, DASN (A&LM),
comments are responsive. We request that the Commanding Officer, FISCSI RCD,
provide a copy of the revised policy memoranda when issued.

       2. Update the Commander, Service Force Sixth Fleet/Naval Regional
Contracting Center, Instruction 4280.2A, “Master Agreement for Repair and
Alteration of Vessels, Master Ship Repair Agreement and Agreement for Boat
Repair,” October 24, 2002, to require Fleet Industrial Supply Centers to conduct
market research to identify potential new contractors.

3
    The Competition in Contracting Act is implemented by FAR Parts 6 and 13.5.




                                                     9

Management Comments
The Director, Program Analysis and Business Transformation, DASN (A&LM),
responding for the Commanding Officer, FISCSI, agreed. The Director stated that the
ordering process in place under the 2002 policy did not provide adequate attention to the
underlying business basis for actions that were being undertaken; as a result, the market
research for each job order consisted of little more than a cut and paste of the same
information repeatedly. The Director also stated that on October 1, 2010, an individual
from FISCSI RCD Policy Division was temporarily assigned to revise the MARAV job
ordering policy, and conduct and document market research. The Director stated that this
temporary assignment will be completed by May 31, 2011. According to the Director, a
centralized billet whose focus is strategic and business oriented should ensure maximum
benefits for the Government, eliminate repetitive paperwork at the working level, ensure
that the IGCE is meaningful, and allow for appropriate negotiations and price analysis for
each job order. The Director stated that the revision of the MARAV policy memorandum
will be completed by March 31, 2011.

Our Response
The Director, Program Analysis and Business Transformation, DASN (A&LM), agreed;
however, we consider the comments partially responsive. Although FISCSI assigned an
individual to revise a MARAV policy memorandum, the Director did not state the full
name of the MARAV policy under revision. Therefore, we cannot determine whether
FISCSI is updating the Commander, Service Force Sixth Fleet/Naval Regional
Contracting Center, Instruction 4280.2A, “Master Agreement for Repair and Alteration
of Vessels, Master Ship Repair Agreement and Agreement for Boat Repair,” October 24,
2002, as we recommended. We request that the Commanding Officer, FISCSI, provide
additional comments in response to the final report to confirm that FISCSI is updating the
Commander, Service Force Sixth Fleet/Naval Regional Contracting Center, Instruction
4280.2A.

      3. Perform a review of contracting officers’ actions related to limiting
competition for contracts N49400-07-G-A501-7081, N49400-07-G-A501-8038,
N49400-07-G-A501-8139, and N49400-07-G-A9045, N49400-03-H-A005-6002,
N49400-03-H-A005-6007, and N49400-07-G-A600-7001, and as appropriate initiate
administrative action.

Management Comments
The Director, Program Analysis and Business Transformation, DASN (A&LM),
responding for the Commanding Officer, FISCSI, agreed. The Director stated that all of
the contracts were reviewed in relation to limiting competition. He also stated that the
administrative actions in response to Recommendations A.1 and A.2 should prevent
inappropriate competition.

Our Response
The Director, Program Analysis and Business Transformation, DASN (A&LM),
comments are responsive. No further comments are required.



                                           10 

Finding B. Improvements Needed for
Determining Price Reasonableness
The contracting officers at FISCSI Detachments Bahrain and Dubai did not adequately
evaluate price reasonableness for $18.9 million in contract actions. Specifically, the
contracting officers did not properly determine price reasonableness for 7 contracts,
initially awarded for $16.2 million, and for 36 contract modifications, valued at
$2.7 million, to 9 contracts.4 This occurred because the contracting officers:

        based price reasonableness determinations on unsupported revised independent
         Government cost estimates (IGCEs),
        did not document price reasonableness determinations, or
        based price reasonableness determinations on incorrect calculations.

As a result, FISCSI Detachments Bahrain and Dubai contracting officers may not have
achieved the best value for $18.9 million in contracting actions.

Criteria
The FAR provides guidance on price reasonableness requirements for contracting.
FAR Part 15, “Contracting by Negotiation,” outlines policies and procedures governing
competitive and noncompetitive negotiated acquisitions. FAR 13.106-3, “Award and
Documentation,” provides specific requirements for price reasonableness under
simplified acquisition procedures.

Contracting by Negotiation
FAR part 15 states that contracting officers must purchase supplies and services at fair
and reasonable prices. FAR 15.305, “Proposal Evaluation,” states that when contracting
on a firm-fixed-price basis, comparison of the proposed prices will satisfy the price
analysis requirement. Adequate price competition is obtained when two or more offerors
submit priced offers that satisfy the Government’s requirements. When adequate price
competition is not achieved, FAR 15.403-3, “Requiring Information Other Than Cost or
Pricing Data,” states that the contracting officer is responsible for obtaining information
that is adequate for evaluating the reasonableness of the price. The contracting officer
must require the offeror to submit information that, at a minimum, includes appropriate
information on the prices at which the same or similar item has previously been sold.
Contract modifications have no price competition and, as a result, the contracting officer
is required to do a cost or price analysis to determine price reasonableness.

In addition, FAR 15.404-1, “Proposal Analysis Techniques,” states that the Government
may use various price analysis techniques and procedures to make sure it gets a fair and
reasonable price. Some of the techniques include: a comparison of previously proposed
prices, a comparison of proposed prices with IGCEs, a comparison of proposed prices
with those obtained through market research for the same or similar items, and analysis

4
    We reviewed 14 contracts, but not all contracts had modifications with deficiencies.


                                                       11 

of pricing information provided by the offeror. FAR 15.406-3, “Documenting the
Negotiation,” states that the contracting officer must document in the contract file the
principal elements of the negotiated agreement, including the fair and reasonable pricing
determination. The documentation must include an explanation of any significant
differences between the two positions.

Simplified Acquisition Procedures
As part of the simplified acquisition procedures, FAR 13.106-3 requires that before
making an award, the contracting officer must determine that the proposed price is fair
and reasonable. In addition, it requires that whenever possible, the contracting officer
must base price reasonableness on competitive quotations or offers. If only one response
is received, the contracting officer must include a statement of price reasonableness in the
contract file. Specifically, FAR 13.106-3, states that the contracting officer may base the
statement of price reasonableness on:

       (i) 	 Market research;
       (ii)	 Comparison of the proposed price with prices found reasonable on previous purchases;
       (iii) Current price lists, catalogs, or advertisements. However,
                                                               	        inclusion of a price in a price list,
             catalog, or advertisement does not, in and of itself, establish fairness and reasonableness of
             the price;
       (iv) A comparison with similar items in a related industry;
       (v)	 The contracting officer’s personal knowledge of the item being purchased;
       (vi) 	Comparison to an independent Government estimate; or
       (vii) Any other reasonable basis.

Contract modifications are not competed; they are negotiations between the contracting
officer and the contractor. Therefore, the contracting officer must include a statement of
price reasonableness in the contract file.

Inadequate Price Reasonableness for Seven Contracts
Contracting officers at FISCSI Detachments Bahrain and Dubai did not adequately
determine price reasonableness for 7 contracts, valued at $16.2 million. Specifically, for
7 of the 14 contracts we reviewed, the contracting officer awarded:

      4 contracts for $7.9 million but did not properly determine price reasonableness
       and
      3 contracts for $8.3 million but did not document their price reasonableness
       determinations and include price reasonableness statements.

Contracting Officers Improperly Determined Price
Reasonableness
We reviewed the contract files for all 14 contracts, initially awarded for $27.5 million,
with a final contract value of $35.3 million including modifications. We found that for
4 contracts (N49400-07-H-A501-5059, N49400-07-G-A501-7081, N49400-07-G-A501-
8038, and N49400-07-G-A600-7001), valued at $7.9 million, the contracting officer
received only one proposal. When only one proposal is received, the FAR requires the
contracting officer to include a statement of price reasonableness in the contract file. In


                                                   12 

addition, the FAR requires that when adequate price competition is not achieved, the
contracting officer must evaluate the reasonableness of the prices. The contracting
officer determined price reasonableness by comparing the contractor’s proposed prices
with an IGCE for all 4 contracts.

   The contracting officers could      We reviewed the comparison between the
     not provide any substantive       contractor’s proposed prices and the IGCE and
   documentation explaining why        found that the contracting officers requested a
       the initial IGCEs were          revision of the original IGCEs. In all four
   incorrect or why the requiring      contracts, the initial IGCE varied from the
   activity incorrectly determined     contractor proposal, in one instance by as much as
      the scope of the contract.       72 percent (see Table 1). According to contract
                                       documentation, the contracting officers requested
the surveyors adjust the IGCEs because the IGCEs, when compared to the contractor’s
proposed price, were either too high or too low. According to contract documentation,
the revised estimates were based on the actual scope of work or were changed to reflect
the contractor proposed prices. The contracting officers could not provide any
substantive documentation explaining why the initial IGCEs were incorrect or why the
requiring activity incorrectly determined the scope of the contract. In most of the cases,
the revised IGCE reduced the gap between the initial IGCE and the contractor’s proposal.
Based on this reduction, the contracting officers then determined the contractor’s price to
be fair and reasonable.

Also we were unable to determine what methodology the NSSA Detachment Bahrain
surveyors used to revise the IGCE because of the lack of documentation. Therefore, we
could not assess the accuracy of the surveyor’s revision process. The contracting officers
should have required the NSSA Detachment Bahrain surveyors to adequately document
the basis for all elements of the initial IGCE and any changes to the IGCE (see Table 1).

 Table 1. Initial Contracts With Inadequate Price Reasonableness Determinations
Contract      Initial     Contractor’s   Difference    Revised       Awarded      Difference
              IGCE        Original Bid    Bid vs.       IGCE          Value       Awarded
                                           Initial                                Value vs.
                                           IGCE                                    Revised
                                                                                    IGCE
 7081         $828,740       $668,894      -19%         $672,738      $668,894       -1%
 8038           886,894      1,383,643      56%         1,421,663     1,383,643      -3%
 7001         2,499,644      4,295,155      72%         3,393,912     4,295,155      27%
 5059         1,400,000      1,544,983      10%         1,719,783     1,574,722      -8%
 Total      $5,615,278     $7,892,675      40%        $7,208,096    $7,922,414      10%

The contracting officers improperly determined price reasonableness for the 4 contracts
because they based price reasonableness on IGCEs that were insufficiently documented
by the surveyors. In addition, after the contracting officers requested that the surveyors
change the IGCEs, the revised IGCEs better matched the contractor-proposed prices as
shown in Table 1. The contracting officer then used the revised IGCEs to justify that the
contractor-proposed prices were reasonable. As a result, the contracting officers should


                                            13
have used a different price reasonableness method to properly determine if contract prices
were reasonable.

Contracting Officers Did Not Document Price Reasonableness
We were unable to determine the basis for the contracting officers’ price reasonableness
determination for three contracts (N49400-03-H-A005-6002, N49400-03-H-A005-6007,
and N49400-04-H-A501-5120), valued at $8.3 million. The contract files did not contain
documented price reasonableness determinations. Contracts N49400-03-H-A005-6002
and N49400-03-H-A005-6007 were initially awarded under one contract, but were later
split (See Finding D). The contract files for both contracts contained a price comparison
that compared the contractor’s proposals to the IGCE. However, the comparison shows a
contractor’s proposal of $5,479,545 that did not match the amount of the final bid or the
contract awarded value of $6,985,413.

In addition, the contract file for N49400-03-H-A005-5002 contained another contractor’s
bid for $6,526,503, which was $458,910 less than the contract award. The contract file
did not contain the FAR-required documentation (See Finding D), including the price
negotiation memorandum and price reasonableness determination. Also, the contract
solicitation did not list the evaluation factors for award, as required by the FAR.
However, according to notes from a meeting between the contracting officer and the
losing contractor, the contracting officer stated that price was the determining factor.
Because of the lack of documentation, we were unable to determine why the contracting
officer awarded the contract to the contractor with the highest bid amount, which also
exceeded the IGCE amount, or how the awarded amount was determined to be fair and
reasonable.

 For contract N49400-04-H-A501-5120, the contracting officer created a spreadsheet to
compare the IGCE with the contractor’s proposed prices but did not document the price
reasonableness determination or explain why they awarded the contract for an amount
exceeding the IGCE. Without having a documented price reasonableness determination
including a reliable price comparison, we were unable to determine whether a reasonable
price was achieved for the three contracts (see Table 2).




                                           14 

  Table 2. Initial Contract Award With No Price Reasonableness Determinations
       Contract        IGCE      Contractor’s Awarded       Difference
                                                        *
                                  Final Bid       Value      Awarded
                                                             Value vs.
                                                               Initial
                                                               IGCE
         6002        $2,949,077    $3,863,670 $3,477,033        18%
         6007         2,981,031     3,898,200    3,508,380       18%
         5120         1,364,730     1,335,147    1,335,147      -2%
         Total       $7,294,838    $9,097,017 $8,320,560        14%
       *
        Contracts N49400-03-H-A005-6002 and N49400-03-H-A005-6007 included a line item
       that reduced the overall proposed price by 10 percent. Therefore, the 10 percent difference
       between the contractors’ bid and the awarded value is documented in the contract.

Deficiencies in Independent Government Cost Estimates
In addition to the four contracts, valued at $7.9 million, that had inadequate price
reasonableness determinations because the IGCEs were revised without documenting the
basis for the revision, three other contracts (N49400-07-G-A501-8139, N49400-07-G-
A501-J001, and N49400-07-H-A501-6098) had IGCE deficiencies. For two of the
contracts, the contracting officer requested the NSSA surveyor to revise the IGCEs, and
the third contract included two different IGCEs but did not contain any documentation
explaining the two estimates. We did not include these 3 contracts with the 7 of
14 contracts that had inadequate price reasonableness because even though the
contracting officers requested a revision of the IGCEs, the price reasonableness
determinations were based on adequate competition in addition to a comparison of the
IGCE and the contractors’ proposed prices. The IGCE is one of the tools that contracting
officers can use to establish the Government pre-negotiation objectives, perform price
analysis, or determine the reasonableness of the prices submitted by the offerors.

However, we noticed that FISCSI Detachments Bahrain and Dubai contracting officers
consistently requested the surveyors to change the IGCEs. This generally resulted in
revised IGCEs that better matched the contractors' proposed costs (see Table 3).
However, the contracting officers rarely requested the contractors to change their
proposals. For contracts N49400-07-G-A501-8139 and N49400-07-G-A501-J001, the
contracting officer requested the surveyor to recalculate the IGCE before determining
price reasonableness. The revision of the IGCE increased the amount and was used by
the contracting officer to determine price reasonableness. Yet, we found no evidence that
the contracting officer requested the contractors to reconsider their proposed prices. For
contract N49400-07-H-A501-6098, the contracting officer used more than one IGCE to
determine price reasonableness. We found two IGCEs that were compared to the
contractor’s proposals, but the contracting officer only referenced one of the IGCEs in the
price reasonableness determination statement. In addition, the contracting officer did not
document why there were two different IGCEs. We determined that the contracting
officer used a revised IGCE for the price reasonableness determination.




                                                  15 

     Table 3. Contracts With Independent Government Cost Estimates Deficiencies
Contract       Initial        Revised         Contractor’s   Awarded       Contractor’s   Contractor’s
               IGCE            IGCE            Final Bid      Value          Bid vs.        Bid vs.
                                                                             Initial        Revised
                                                                             IGCE            IGCE
 7001         $2,499,644      $3,393,912        $4,295,155    $4,295,155      72%1            27%2
 7081            828,740         672,738           668,894       668,894      -19%             -1%
 8038            886,894       1,421,663         1,383,643     1,383,643      56%              -3%
 8139          2,121,604       2,570,290         2,430,782     2,430,782      15%              -5%
 J001            725,869         812,730           608,966       608,966      -16%            -25%
 5059          1,400,000       1,719,783         1,574,722     1,574,722      12%              -8%
 6098          2,581,233       2,236,285         3,016,167     3,016,167      17%             35%
 Total        $11,043,984      $12,827,401     $13,978,329   $13,978,329      27%             9%
  1
    (4,295,155 – 2,499,644)/2,499,644 = 72%
  2
    (4,295,155 – 3,393,912)/3,393,912 = 27%

  For 7 of the 14 contracts (see Table 3), the contracting officers requested a revision of the
  IGCEs or used more than one IGCE during price reasonableness determinations.
  According to the FISCSI Detachment Bahrain Deputy Officer in Charge, changes
  sometimes needed to be made to IGCEs because the contractors were so dissimilar and,
  as a result, it was difficult for the surveyors to develop good IGCEs. This practice diluted
  the IGCEs usefulness as a negotiation and comparison tool. Two contracts had contractor
  proposals that were less than the initial IGCE; however, 5 other contracts had contractor
  proposals that were higher than the initial IGCE and differed significantly from the
  proposed prices. According to FAR part 15, the contracting officer may use an IGCE as
  one of the tools to establish the Government’s initial negotiation position. For
  contracts N49400-07-G-A501-8038 and N49400-07-G-A600-7001, the contracting
  officer requested a revision of the IGCE but awarded the contracts for the contractors’
  proposed amount. As a result, the IGCE had no impact on the negotiation, even when the
  surveyor revised the IGCE. At a minimum, the price reasonableness would be
  questionable for two contracts when the award price differed from the revised IGCE
  amounts by 27 and 35 percent. All seven contracts were awarded for the contractors’
  proposed amount.

  Inadequate Price Reasonableness for 36 Contract
  Modifications
  The 14 contracts had a total of 158 modifications. However, only 138 modifications
  required price reasonableness determinations because they changed the price of the work
  on the contracts. The contracting officers did not perform price reasonableness
  determinations for 36 of the modifications, valued at $2.7 million. Specifically, the
  contracting officer awarded:

        	 8 modifications for $977,293 with inadequate price reasonableness 

           determinations, 





                                                    16 

         	 10 modifications for $643,446 without a documented price reasonableness
            determination,
         	 3 modifications for $157,781 without sufficient price reasonableness
            determination documentation,
         	 12 modifications for $790,680 that considerably exceeded the IGCE but did not
            document the price reasonableness determination, and
         	 3 modifications for $117,544 that mistakenly based the price reasonableness
            determination on incorrect calculations.

             Table 4. Contract Modifications With Inadequate Price Reasonableness

                                        Determinations

Contract 1     Modification   Initial    Contractor’s       Difference    Revised     Difference     Awarded
                Number
                              IGCE           Bid             Bid vs.       IGCE        Bid vs.        Value
                                                              Initial                  Revised
                                                              IGCE                      IGCE
  5059              8         $32,536          $64,542         98%2        $65,678       -2%3          $64,542
  8139              1         117,172           95,128         -19%        101,208       -6%            95,128
  8139              2          19,459           23,731         22%          25,822       -8%            23,731
  8139              4          83,833          106,757         27%         104,750        2%           106,757
  8139              5         130,149          133,786          3%         129,217        4%           133,786
  8139              6          64,066          123,213         92%         122,990        0%           123,213
  8139              7          67,408          169,658        152%         170,908       -1%           169,658
  8139              8          85,349          260,478        205%         253,349        3%           260,478
  Total             8         $599,972        $977,293      63%          $973,922        0%            $977,293
   1
     Modification 3 for contract N49400-07-G-A501-8139 did not have any price reasonableness issues. 

   2
     (64,542 – 32,536)/32,536 = 98%

   3
     (64,542 – 65,678)/65,678 = -2%


   We reviewed the contract files for all 138 contract modifications, valued at $7.8 million,
   and found that for 8 modifications, valued at $977,293, the initial IGCE significantly
   varied from the contractor’s proposal, by as much as 205 percent. The contracting
   officers requested revisions to the IGCEs due to discrepancies between the Government
   cost estimates and the contractor’s proposal. According to the contract files, the NSSA
   surveyor found mistakes in their calculations and corrected them in the revised IGCEs for
   five of the eight modifications. However, the contracting officers did not document the
   specific mistakes the surveyor made in his or her calculations. For five modifications,
   the contracting officer requested the contractor to revise its proposed prices, but the
   contractor never revised its proposed price. The contractor stated that it would not
   change its price because it was based on the actual scope of the work. For seven of the
   eight modifications, the revised IGCE reduced the difference between the initial IGCE
   and the contractor’s proposal and served as the basis for the contracting officers’ price
   reasonableness determinations (see Table 4). However, we found instances in which the
   pricing for individual contract line items in the revised IGCE varied significantly
   compared to the contractor’s proposal. The contracting officers did not document the
   instances when contract line items in the proposals were priced significantly higher than
   the IGCE. For example, in modification 8 for contract N49400-07-G-A501-8139, we



                                                     17 

found that the revised IGCE included contract line items 196, 197, and 200 that the
contractor proposed for more than 25 percent over the revised IGCE, but the contracting
officers did not document how they determined that the prices for those contract line
items were fair and reasonable.

In contract N49400-07-G-A501-8139 modification 7, the initial IGCE was for
$67,408 and the revised IGCE was $170,908 for a 154 percent increase. Because of the
lack of documentation in the contract file, we were unable to determine what
methodology the NSSA Detachment Bahrain surveyors used to revise the IGCE.
Therefore, we cannot assess the accuracy of the surveyor’s revision process or the revised
IGCE. FISCSI Detachments Bahrain and Dubai contracting officers based price
reasonableness on unsupported revised IGCEs that better matched the contractor
proposals without explaining why the IGCEs were changed. Also, for the eight
modifications listed in Table 5, the IGCE had little bearing on the award amount because
awards were made at the proposed amount regardless of whether the IGCE was higher or
lower. NSSA Detachment Bahrain officials should review the methodology for
developing IGCEs to determine that the IGCEs include sufficient supportive
documentation for the original estimates and any change to the estimates.

       Table 5. No Documented Price Reasonableness or Price Analysis in Contract
                                Modifications
           Contract         Modifications        Award Value             Price
                                                                    Reasonableness
                                                                    Determination
             5059              14 and 15               $91,588           None
             5059             7, 9, and 10             157,781        Insufficient
             5120               1 and 2                291,644           None
             7001                   1                   30,870           None
             9088*                  1                   31,160           None
             7032                  22                   10,178           None
             6002                  17                   13,696           None
             6002                  21                  133,435           None
             6007                   1                   40,875           None
             Total                 13                 $801,227
       *Contract N49400-07-G-A500-9088 is a continuation of contract N49400-07-G-A500-
       9059; therefore, we evaluated both as one contract.

A total of 13 modifications, valued at $801,227, had missing or incomplete
documentation. Specifically, 10 contract modifications, valued at $643,446, had contract
files that did not contain a documented price reasonableness determination in accordance
with the FAR. In addition, three modifications, valued at $157,781, had contract files
that contained price reasonableness determinations but did not contain any supporting
documentation to show how the contracting officers came to the determination (see


                                              18 

Table 5). Without a documented price determination or price analysis, we cannot verify
whether fair and reasonable prices were achieved for the contracts. The contracting
officers should document their price reasonableness determinations for all contract
modifications including the supporting documentation used for the price analysis.

The contracting officers awarded 12 modifications, valued at $790,680, for amounts
significantly higher than the IGCE (see Table 6) but did not document the rationale for
concluding that the significantly higher price was fair and reasonable. The contracting
officers should have documented their fair and reasonable pricing determination as
required by the FAR. Without documentation to support the contracting officers’ actions,
we could not verify that the prices were fair and reasonable.

    Table 6. Undocumented Contract Modifications Awarded Higher Than the IGCEs
    Contract Modification      IGCE     Awarded Difference       Documentation
                                          Value      Awarded
                                                     Value vs.
                                                      IGCE
     6002            4          $1,044     $2,100     101%*          None
     6002            8           1,116       1,450     30%           None
     6002            9           8,900     14,520      63%           None
     6002           13          33,694    161,858     380%           None
     6002           16           5,136     28,720     459%           None
     6002           19           9,928     36,394     267%           None
     6002           22           3,200       4,700     47%           None
     6007            2          17,925     51,644     188%           None
     6007            3          65,478     83,002      27%           None
     6007            4          67,680    104,272      54%           None
     6007            5          81,163    109,806      35%           None
     6007            6        154,138     192,214      25%           None
     Total          12       $449,402    $790,680      76%
*
(2,100 – 1,044)/1,044 = 101%

In three modifications, valued at $117,544, the contracting officers awarded the contracts
with proposed prices exceeding the IGCE but justified their price reasonableness
determinations with incorrect calculations (see Table 7). The contracting officers
incorrectly stated that the contractors’ proposed prices were lower than the IGCE when
the proposed prices were actually higher than the IGCE.

Therefore, FISCSI Detachment Bahrain contracting officers awarded three contract
modifications based on incorrect price reasonableness determinations. The contracting
officers should be more attentive to their calculations when analyzing proposals to
determine if they are fair and reasonable.



                                            19 

       Table 7. Contract Modifications Using Incorrect Calculations in Price 

                         Reasonableness Determinations

          Contract        Modification         IGCE         Award       Difference
                                                            Value
            9059                2               $9,094      $11,100         22%
            9059                4               59,210       61,224         3%
            J001                3               42,998       45,220         5%
            Total               3             $111,302     $117,544         6%

Contracting officers did not properly determine price reasonableness for 11 modifications
or document their price reasonableness determinations for 25 modifications. As a result,
the Navy may not have obtained fair and reasonable prices for contracted services
awarded for $2.7 million. The FISCSI Detachments Bahrain and Dubai contracting
officers should document fair and reasonable price determinations for all future contract
actions with price changes, as required by FAR 15.406-3, or FAR 13.106-3.

Additional Mistakes in Price Reasonableness
Memoranda
In addition to the 36 contract modifications that were not supported by adequate price
reasonableness determinations, we found mistakes in price reasonableness memoranda
for 16 contract actions. The contracting officers incorrectly calculated or transposed the
amounts of the IGCE and the contractors’ proposed prices in the price reasonableness
documentation. However, the errors did not impact the overall determination of price
reasonableness.

Conclusion
The contracting officers did not adequately comply with price reasonableness
requirements during the award of 7 contracts valued at $16.2 million and 36 contract
modifications, valued at $2.7 million. This occurred because contracting officers did not
perform or document price reasonableness determinations and based their price
reasonableness determinations on unsupported revisions to IGCEs. As a result, FISCSI
Detachments Bahrain and Dubai contracting officers did not demonstrate that they
obtained the best price for more than $18.9 million in contracting actions. In addition, for
three other contracts, the contracting officer requested the surveyors to revise the IGCEs
or used two different IGCEs without documenting the basis for the revision. The
contracting officers should document fair and reasonable price determinations in
accordance with the FAR. Contracting officers should also be more attentive when
analyzing and documenting proposals to develop accurate price reasonableness
documentation.




                                            20 

Recommendations, Management Comments, and Our
Responses
B.1. We recommend that the Commanding Officer, Fleet and Industrial Supply
Center, Sigonella, direct the Fleet and Industrial Supply Center, Sigonella
Detachment Naples, and its Detachments in Bahrain and Dubai to require the
contracting officers to document fair and reasonable price determinations for all
future contract actions with price changes as required by Federal Acquisition
Regulation 15.406-3, “Documenting the negotiation,” or Federal Acquisition
Regulation 13.106-3, “Award and documentation.”

Management Comments
The Director, Program Analysis and Business Transformation, DASN (A&LM),
responding for the Commanding Officer, FISCSI, agreed. The Director stated that fair
and reasonable price determinations at all detachments and sites did not meet applicable
standards, and as a result, FISCSI RCD scheduled a 5-day price analysis training course
from January 24 through 28, 2011. According to the Director, the course is being tailored
to meet the specific needs of FISCSI, including the use of IGCEs as a method to establish
price reasonableness and conduct price analyses of proposals when IGCEs cannot
establish price reasonableness. The Director also stated that FISCSI RCD implemented a
requirement, within the automated contract writing system, on November 15, 2010, that
requires all team leaders to perform second-level reviews of every procurement
transaction to identify quality issues with the fair and reasonable price determination.

Our Response
The Director, Program Analysis and Business Transformation, DASN (A&LM),
comments are responsive. No further comments are required.

B. 2. We recommend that the Officer in Charge, Norfolk Ship Support Activity
Detachment Bahrain, review the methodology for developing independent
government cost estimates to determine that they include sufficient supporting
documentation for the original estimates and any change to the estimates.

Management Comments
The Director, Program Analysis and Business Transformation, DASN (A&LM),
responding for the Officer in Charge, NSSA Detachment Bahrain, agreed. He stated that
NSSA Detachment Bahrain provided surveyor training in January 2010 on developing
IGCEs using the Joint Fleet Maintenance Manual, Volume VII, Chapter 5.

Our Response
The Director, Program Analysis and Business Transformation, DASN (A&LM),
comments are partially responsive. Although training was provided to surveyors based
on the Joint Fleet Maintenance Manual, there is no indication that the Officer in Charge
reviewed the manual to determine if it required sufficient supporting documentation for
the original estimates and any changes to the estimates. Based on our review of the Joint
Fleet Maintenance Manual, Volume VII, Chapter 5, we found no indication that


                                           21 

supporting documentation is required for IGCEs. Surveyors are only required to fill out a
Standard Cost Estimate Naval Sea Systems Command Form 4710/7 when estimating
direct labor categories. Also, the manual does not address changes made to the IGCEs.
We request that the Officer in Charge, NSSA Detachment Bahrain, provide additional
comments in response to the final report that identify the results of his review of the
methodology for developing the IGCE and documenting the IGCE and any changes.




                                           22 

Finding C. Insufficient Contract Surveillance
FISCSI Detachments Bahrain and Dubai contracting officers did not provide adequate
contract surveillance for 14 contracts, valued at $35.3 million. This occurred because the
contracting officers did not properly designate contracting officer’s representatives
(CORs) for all 14 contracts in accordance with the DFARS. In addition, FISCSI
Detachments Bahrain and Dubai contracting officers did not make sure that NSSA
Detachment Bahrain and Military Sealift Fleet Support Command personnel performed
adequate surveillance or correctly accepted supplies and services for 13 out
of 14 contracts. As a result, the Navy may not have received the quality of ship
maintenance and repairs for which it contracted.

Criteria
The FAR and DFARS provide criteria on contract surveillance.

FAR
FAR Subpart 46.4, “Government Contract Quality Assurance,” states the Government
should conduct contract quality assurance at times and places necessary to determine that
the supplies or services conform to contract requirements. The quality assurance sur-
veillance plan (QASP) is a document that allows the Government to determine whether
supplies and services provided by the contractor conform to contract requirements. The
QASP identifies all of the work requiring surveillance and how the surveillance will be
performed.

FAR 46.502, “Responsibility for Acceptance,” states that acceptance of supplies or
services are the responsibility of the contracting officer. FAR 46.101, “Definitions,”
defines acceptance as the act of an authorized representative of the Government by which
the Government, for itself, assumes ownership of existing identified supplies tendered or
approves specific services rendered as partial or complete performance of the contract.
FAR 46.501, “General,” states that acceptance constitutes the Government’s
acknowledgement that the supplies or services conform to applicable contract quality and
quantity requirements and that acceptance is evidenced by execution of an acceptance
certificate on an inspection or receiving report form.

DFARS
DFARS Procedures, Guidance, and Information (PGI) 201.602, “Contracting Officers,”
states that for service contract actions, contracting officers will designate a properly
trained COR in writing before contract performance begins. A COR can assist the
contracting officer in the technical monitoring and administration of a contract, though he
or she may not change the terms and conditions of the contract. In addition, a COR must
be a Government employee qualified by training and experience, and designated in
writing.

According to DFARS PGI 201.602-2, “Responsibilities,” CORs assist in the technical
monitoring or administration of a contract. The COR must also maintain a file for each
contract assigned to include, at a minimum, a copy of the contracting officer’s letter of


                                            23 

designation and other documentation describing the COR’s duties, responsibilities, and
documentation of actions taken to exercise the authority.

Three Requiring Activities
The three requiring activities for the 14 contracts we reviewed are Norfolk Ship Support
Activity (NSSA) Detachment Bahrain, Military Sealift Command, and the Navy
Expeditionary Combat Command. NSSA Detachment Bahrain was the requiring activity
for 12 of the 14 contracts. The Navy Expeditionary Combat Command and the Military
Sealift Command were the requiring activity for one contract each.

Contract Surveillance Lacking for 12 NSSA Detachment Bahrain
Contracts
FISCSI Detachments Bahrain and Dubai contracting officers did not designate a COR for
12 NSSA Detachment Bahrain contracts in accordance with DFARS PGI 201.602-2. The
FISCSI Detachment Bahrain Deputy Officer in Charge stated that CORs were not used
because the contracts were a combination of supply and commercial services contracts
and a COR was not required for these types of contracts. However, the DFARS does not
distinguish between commercial and non-commercial services. We reviewed the
12 contracts and found that they included services. For example, contract N49400-04-H-
A501-6098 required that the contractor inspect and repair the underwater hull, the fuel oil
tank, and the potable water tank. Because the contracts included services, the
contracting officers should have designated trained CORs for these 12 contracts, valued
at $31 million.

In fact, 12 of the NSSA Detachment Bahrain contracts had 2 to 3 surveyors assigned to
each contract. The surveyors acted as CORs when overseeing contractor performance on
the ships. However, the contracting officers did not designate the surveyors as CORs in
accordance with DFARS requirements, nor did the surveyors provide sufficient
surveillance of the contractors. In addition, the contracting officer did not fully inform
the surveyors of their responsibilities and liabilities as CORs. Furthermore, the FISCSI
Detachments Bahrain and Dubai contracting officers did not verify that the surveyors
performed adequate surveillance on the 12 NSSA Detachment Bahrain contracts.

In addition, we reviewed the contract files for the 12 contracts to determine whether the
contracting officers developed a QASP for each contract. We did not find documents
specifically labeled as QASP; however, the contracts contained work specifications that
acted as a QASP, described the work requiring surveillance and the method of
surveillance, and met the FAR requirements for a QASP. These specifications contained
built-in checkpoints, which the surveyor observed the contractor performing. The
contractor provided reports to the surveyor documenting the checkpoints and other work
performed as described in the specifications. The surveyor signed the reports and kept
them in the surveyor file. By accepting and signing the reports, the surveyor indicated
that the work products met quality standards. However, the contract files did not include
all of the surveyor reports, and some of the surveyor reports were unsigned.




                                            24 

We selected a judgment sample of the contract line item numbers from the 12 contracts
and contract modifications based on the specifications contained in those line items. We
determined which contractor reports the surveyor should have accepted. We then
reviewed the surveyor files for each contract to determine whether all of the reports
required in the specifications were received, indicating that the surveyor certified that the
contractor performed the work. We then reviewed the reports, when available, to
determine if the surveyor accepted the results by signing the reports. While on site, we
reviewed the surveyor files; however, the surveyors could not locate files for three
contracts, and the surveyor files for the other nine contracts were unorganized and
incomplete.

We requested that NSSA provide us any missing reports from the surveyor files.
However, an NSSA surveyor stated that he had to obtain the reports from the contractor.
Even with the contractor-provided reports, NSSA Detachment Bahrain officials were
unable to provide all of the required reports. In addition, surveyor signatures were
missing on some of the reports that were provided. NSSA Detachment Bahrain should
require the surveyors, or other designated CORs, to maintain surveillance files on all
current and future contracts and require the surveyors to sign all surveillance reports.
According to a supervisory surveyor, NSSA Detachment Bahrain does not have a written
standard operating procedure for maintaining and storing contract surveillance
documentation. However, the FISCSI Detachment Bahrain Deputy Officer in Charge
stated that the NSSA supervisory surveyor is required to certify the contractor invoices
for payment, certifying that the contractor completed the work based on the surveyor
files. The NSSA Detachment Bahrain financial management analyst also stated that the
surveyors check their files to make sure that work billed was completed. However, based
on our review, it is unclear how the surveyors made adequate determinations that
contracts were completed to the specified quality standards based on incomplete and
inadequate surveyor files. Additionally, because the contracting officer relied solely on
the surveyor’s certification that the contractor completed the work, all of those reports
should have been part of the contract file maintained by the contracting office. As a
result, FISCSI should require that the contracting officer properly document acceptance
of all supplies and services on current and future contracts.

     The NSSA surveyors also acted as         The NSSA surveyors also acted as
   certifying officials and relied on their   certifying officials and relied on their
    unorganized and incomplete files to       unorganized and incomplete files to
      approve contractor invoices for         approve contractor invoices for payment.
                   payment.                   As a result, the Navy may not have
                                              received the quality and quantity of work
                                              they required for the 12 contracts, valued at
$31 million. Because the surveyor files are relied on for quality assurance and
contractor payment, NSSA Detachment Bahrain should develop standard operating
procedures that require the files to be complete and organized. In addition, the FISCSI
Detachments Bahrain and Dubai contracting officers should certify that the COR follows
the standard operating procedures by including this requirement in the COR designation
letter.



                                              25 

Contract Surveillance Lacking for the Military Sealift Command
Contract
FISCSI Detachment Bahrain contracting officers did not designate a COR for contract
N49400-07-G-A501-J001, valued at $743,085, in accordance with DFARS
PGI 201.602-2. Similar to the surveyors for NSSA Detachment Bahrain, Military Sealift
Fleet Support Command had a Government port engineer assigned to the contract who
performed the duties of a COR. The port engineer used a port engineering program,
which he used to document the status of each job. However, the contracting officer did
not designate the port engineer with a signed letter in accordance with DFARS
PGI 201.602-2. In addition, the contract file did not have evidence of proper surveillance
and acceptance of the goods and services obtained under contract N49400-07-G-A501-
J001. The port engineers used an automated system to document and file the surveillance
actions required in the contract.

The surveillance documentation provided by the Military Sealift Fleet Support Command
demonstrated that the port engineer provided some surveillance for contract N49400-07-
G-A501-J001. However, we could not connect the surveillance documents to the
inspections and reports required in the contract specifications and the statement of work.
None of the surveillance documents we received referenced the specific inspections
required for the contract line item numbers in the specifications and the statement of
work. Also, the surveillance documents for contract N49400-07-G-A501-J001 provided
an overview of the work done on the ship, but did not include any information about the
required inspections. Therefore, we determined that the port engineer did not perform
adequate surveillance for contract N49400-07-G-A501-J001 because there is no evidence
that the port engineer evaluated all the reports required in the specifications and the
statement of work, or that the port engineer performed all the required inspections. As a
result, Military Sealift Fleet Support Command should require that the port engineer or
other designated COR maintain files on all current and future contracts that contain all
of the required reports in the specifications and that this information be retrievable and
traceable to the requirement in the contract specifications and statement of work.

Contracting Officer Representatives Not Trained or Aware of
Responsibilities for Navy Expeditionary Combat Command
Contract
FISCSI Detachment Dubai contracting officer designated one to six CORs at any given
time for contract N49400-08-C-0022, valued at $3,618,686, but we could not verify that
all of the CORs were properly trained or aware of their responsibilities as CORs.
Because the contractor completed work on contract N49400-08-C-0022 at two sites, we
determined that, during the period of performance of the contract, the contracting officer
should have designated at least two CORs, one for each site. At one point, the
contracting officer only had one designated COR for both sites. The FISCSI Detachment
Dubai contracting officer could not provide documentation of the CORs’ training.
Because some of the CORs did not sign the designation letters, there is no evidence that
the CORs were aware of their responsibilities. As a result, the FISCSI Detachment Dubai
contracting officer should properly document the designation and training of CORs in
accordance with DFARS 201.602-2.


                                           26 

Conclusion
FISCSI Detachments Bahrain and Dubai contracting officers did not adequately comply
with the contract surveillance requirements during the administration of 14 contracts,
valued at $35.3 million. The FISCSI Detachments Bahrain and Dubai contracting
officers did not designate CORs in accordance with DFARS PGI 201.602-2. The FISCSI
Detachments Bahrain and Dubai contracting officers should designate the surveyors and
port engineers as CORs in writing and make sure that they have training, if they plan to
continue to use them as CORs. The contracting officers also did not verify that the
surveyor or port engineer accepted the contracted services in 13 contracts in accordance
with FAR 46.502. FISCSI Detachments Bahrain and Dubai contracting officers, NSSA
surveyors, and Military Sealift Command port engineers must comply with contract
surveillance requirements in the FAR and DFARS to verify that the Navy receives the
quality of ship maintenance and repairs for which it contracted.

Recommendations, Management Comments, and Our
Responses
C.1. We recommend that the Commanding Officer, Fleet and Industrial Supply
Center, Sigonella, require that the Fleet and Industrial Supply Center, Sigonella
Detachment Naples, and its Detachments in Bahrain and Dubai:

       a. Designate contracting officer’s representatives on all current and future
ship maintenance and repair contracts using a designation letter containing all of
the elements in Defense Federal Acquisition Regulation Supplement Procedures,
Guidance, and Information 201.602-2, “Responsibilities.”

Management Comments
The Director, Program Analysis and Business Transformation, DASN (A&LM),
responding for the Commanding Officer, FISCSI, agreed. The Director stated that
according to Naval Sea Systems Command, ship repair is designated as a supply contract
and not a service contract that would require the appointment of a COR. However, the
Director stated that FISCSI RCD previously determined that the ship repair contracts are
so critical that the use of a COR is appropriate. The Director also stated that the
requirement to appoint a COR in all ship repair contracts will be an element of the
updated local ship repair and MARAV policy memoranda. He also stated that on
November 23, 2010, FISCSI RCD implemented a database to track all contracts that
require that a COR be designated, including ship repair contracts. According to the
Director, the standard operating procedure within this database requires that COR
training records, designation letters, and annual meetings between the COR and the
contract administrator be entered for each contract. The Director stated that the records
would be entered into the database by December 30, 2010.

Our Response
The Director, Program Analysis and Business Transformation, DASN (A&LM),
comments are responsive. No further comments are required.


                                           27 

       b. Require that all designated contracting officer’s representatives receive
required contracting officer representative training.

Management Comments
The Director, Program Analysis and Business Transformation, DASN (A&LM),
responding for the Commanding Officer, FISCSI, agreed. The Director stated that the
CORs will be required to complete training before appointment. As stated in his
response to Recommendation C.1.a, COR training records will be a required element of
the FISCSI RCD database.

Our Response
The Director, Program Analysis and Business Transformation, DASN (A&LM),
comments are responsive. No further comments are required.

      c. Require that contracting officer acceptance of supplies and services be
performed in accordance with the FAR on current and future contracts.

Management Comments
The Director, Program Analysis and Business Transformation, DASN (A&LM),
responding for the Commanding Officer, FISCSI, agreed. The Director stated that the
revised MARAV policy memoranda will require the inclusion of a contract
administration plan for all ship repair contracts. He also stated that the revised policy
memoranda will include a standardized process that requires the contracting officers to
obtain the COR’s inspection and acceptance documentation for all ship repair
transactions. According to the Director, the contracting officers will include the
documents in the official contract file to ensure compliance with the inspection and
acceptance processes outlined in FAR Part 46, “Quality Assurance.”

Our Response
The Director, Program Analysis and Business Transformation, DASN (A&LM),
comments are responsive. No further comments are required.

C.2. We recommend that the Officer in Charge, Norfolk Ship Support Activity
Detachment Bahrain:

     a. Develop a standard operating procedure outlining the organization and
documentation required for the surveyor files.

        b. Require the surveyors or other designated contracting officer’s
representatives to maintain files on all current and future contracts that contain all
of the required reports in the specifications and sign surveillance reports.

Management Comments
The Director, Program Analysis and Business Transformation, DASN (A&LM),
responding for the Officer in Charge, NSSA Detachment Bahrain, agreed to


                                            28 

Recommendations C.2.a and C.2.b. The Director stated that NSSA Detachment Bahrain
is training personnel for COR certification. The Director also stated that FISCSI RCD
will include a standardized process for obtaining appropriate inspection and acceptance
documentation, to comply with FAR Part 46, for ship repair transactions as part of the
revised local ship repair and MARAV policy memoranda expected to be issued by
March 31, 2011.

Our Response
The Director, Program Analysis and Business Transformation, DASN (A&LM),
comments are partially responsive. During our audit, we attempted to review the NSSA
surveyor files for 12 contracts; however, the surveyors could not locate files for
3 contracts, and the surveyor files for the other 9 contracts were unorganized and
incomplete. The Director stated in his response that FISCSI RCD is developing a
standard process for obtaining appropriate inspection and acceptance documentation for
ship repair transactions; however, the Director did not state that the process would apply
to NSSA surveyors or that the process would include standard operating procedures for
organizing the surveyor files. Also, the Director did not address Recommendation C.2.b,
which requests that surveyors be required to maintain files on all current and future
contracts. We request that the Officer in Charge, NSSA Detachment Bahrain, provide
additional comments in response to the final report to verify that NSSA develops a
standard operating procedure that details the surveyors’ responsibilities and outlines the
organization and required documentation in the surveyor files.

C.3. We recommend that the Director, Military Sealift Fleet Support Command
require the port engineer or other designated contracting officer representatives to
maintain files on all current and future contracts that contain all of the required
reports in the specifications and that this information be retrievable and traceable
to the contract surveillance requirements.

Management Comments
The Director, Program Analysis and Business Transformation, DASN (A&LM),
responding for the Director, Military Sealift Fleet Support Command, agreed. The
Director stated that Military Sealift Fleet Support Command developed and implemented
a standard work item that will be included in requests for proposals. He stated that the
standard work item describes the test and inspection records to be maintained for each
work item. According to the sample standard work item provided as part of the
Director’s response, the contractor must identify the solicitation, contract number, ship
name, and Government work item number on each test and inspection record. In
addition, the Director stated that Military Sealift Fleet Support Command maintains
records for a period of 6 years and 3 months after final payment, in accordance with
FAR 4.805, “Storage, Handling, and Disposal of Contract Files.”

Our Response
The Director, Program Analysis and Business Transformation, DASN (A&LM),
comments are responsive. No further comments are required.



                                            29 

Finding D. Contract Actions for $4.1 Million
Were Incorrectly Funded
FISCSI Detachments Bahrain and Dubai contracting officers incorrectly funded
$4.1 million in contracting actions with FY 2005 funds instead of FY 2006 funds. This
occurred because NSSA Detachment Bahrain, the requiring activity, had only FY 2005
funds available to fund the work included in contract N4940-03-H-A005-5002. Also,
FISCSI Detachments Bahrain and Dubai contracting officers incorrectly grouped ship
maintenance work into contract N4940-03-H-A005-5002, that included bona fide needs
from FY 2005 and FY 2006, and did not have a legal review of the contracting actions.
As a result, the contracting officers violated the bona fide needs rule and may have
violated the Antideficiency Act.

Criteria
The United States Code, FAR, and DoD Financial Management Regulation (DoD FMR)
provide criteria on obligating funds.

United States Code
Section 1341, title 31, United States Code, “Limitations on Expending and Obligating
Amounts,” states that a Federal agency may not authorize an obligation exceeding an
amount available in an appropriation for the obligation. Additionally, a Federal agency
may not obligate the Government for the payment of money before Congress makes an
appropriation.

Section 1502, title 31, United States Code, “Balances Available,” states that the balance
of an appropriation, limited for obligation to a definite period, is available only for
payment of expenses properly incurred during the period of availability or to complete
contracts properly made within that period of availability.

FAR
FAR 32.702, “Contract Funding – Policy,” states that a Government employee cannot
authorize an obligation in excess of the funds available or in advance of appropriations.
In addition, before executing a contract, the contracting officer must obtain written
assurance from the responsible fiscal authority that funds are available.

DoD Regulation Financial Management Regulation
DoD Regulation 7000.14-R, “Standards for Recording and Reviewing Commitments and
Obligations,” (DoD FMR), volume 3, chapter 8, states that current fiscal year
appropriations may be obligated for those maintenance and repair contracts awarded near
the end of the fiscal year, even though contractor performance may not begin until the
following fiscal year. The DoD FMR states that the contract shall satisfy a bona fide
need that arose in or before the fiscal year of the appropriation charged. The DoD FMR
also requires that contracts awarded near the end of the fiscal year contain a specific
requirement that the work begin before January 1 of the following calendar year.




                                            30 

                            USS Firebolt (Patrol Coastal 10)




                    Source: http://www.surflant.navy.mil/shippics/firebolt.jpg

Contract Was Split and Renumbered Into Two Contracts
The administrative contracting officer split contract N49400-03-H-A005-5002 after it
was awarded into two separate contracts, N494000-03-H-A005-6002 and N49400-03-H-
A005-6007. On September 28, 2005, the FISCSI Detachment Bahrain contracting officer
awarded contract N49400-03-H-A005-5002 to Dubai Dry Docks for $7 million. The
scope of work was for the drydock and overhaul of two Patrol Coastal class ships, the
USS Chinook and USS Firebolt. NSSA Detachment Bahrain, the requiring activity,
funded contract N49400-03-H-A005-5002 with FY 2005 money. The FISCSI
Detachment Bahrain Deputy Officer in Charge stated that the issuing contracting officer
then transferred the contract to an administrative contracting officer at FISCSI
Detachment Dubai for administration. She also stated that the administrative contracting
officer separated and renumbered the contract into N49400-03-H-A005-6002 for the
USS Chinook and N49400-03-H-A005-6007 for the USS Firebolt. The administrative
contracting officer signed contract N49400-03-H-A005-6002 on October 18, 2005, for
$3.5 million and contract N49400-03-H-A005-6007 on March 12, 2006, for $3.5 million.
Including modifications, contract N49400-03-H-A005-6007 was valued at $4.1 million
and contract N49400-03-H-A005-6002 was valued at $4.4 million. Both contracts and all
the modifications were funded with FY 2005 money (see Table 8).




                                               31 

                         Table 8. Contracts Award Summary
   Contract Number        Date Signed      Initial       Final        Funding   Date Work
                                          Amount        Contract       Used       Began
                                                         Value
N49400-03-H-A005-5002     September 28,     $7.0          N/A         FY 2005      Split
(CHINOOK &                    2005         million
FIREBOLT)
N49400-03-H-A005-6002      October 18,      $3.5       $4.4 million   FY 2005    October 8,
(CHINOOK)                     2005         million                                 2005
N49400-03-H-A005-6007      March 12,        $3.5       $4.1 million   FY 2005    March 1,
(FIREBOLT)                    2006         million                                 2006


Contracts for $4.1 Million Were Funded With the
Incorrect Year Funding
   Therefore, the contracting officer originally     FISCSI Detachment Bahrain
    included all of the work in N49400-03-H-         contracting officers awarded contract
  A005-5002 in order to fund the entire amount       N49400-03-H-A005-5002 at the end
      with FY 2005 money, but later split the        of FY 2005, and later split the award
           contract into two contracts,              into two contracts, N49400-03-H-
          N49400-03-H-A005-6002 and                  A005-6002 signed on October 18,
            N49400-03-H-A005-6007.                   2005, and N49400-03-H-A005-6007
                                                     signed on March 12, 2006. The
contracting officer used FY 2005 funds on both contracts, even though work started for
both in FY 2006. The contract file contained a memorandum from the Officer in Charge
for NSSA Detachment Bahrain, the requiring activity, which stated that the original
contract was funded with FY 2005 funds because FY 2006 funds were not available.
Therefore, the contracting officer originally included all of the work in N49400-03-H-
A005-5002 in order to fund the entire amount with FY 2005 money, but later split the
contract into two contracts, N49400-03-H-A005-6002 and N49400-03-H-A005-6007.

Section 1502, title 31, United States Code, states that the balance of an appropriation is
available only for payment of expenses properly incurred during the period of availability
or to complete contracts properly made within that period of availability. The DoD FMR
states that funding can be used for a contract at the end of a fiscal year for work
performed in the following fiscal year, so long as the work begins prior to January 1 of
the following calendar year.

The contractor began work on the USS Chinook on October 8, 2005, prior to January 1 as
required by the DoD FMR. However, contract N49400-03-H-A005-5002 states that the
planned arrival of the USS Firebolt was January 23, 2006, after the January 1 DoD FMR
requirement. In addition, the contractor began work on the USS Firebolt on
March 1, 2006, after January 1 of the following calendar year, and more than 5 months
after the initial contract was awarded. Based on when contract N49400-03-H-A005-6007
was signed and work began, the work under this contract, which was originally funded
under N49400-03-H-A005-5002, was a bona fide need of FY 2006 and should have been
funded accordingly.


                                            32 

Half of contract N49400-03-H-A005-5002, consisting of contract N49400-03-H-A005-
6007 requirements, and all of the modifications on contract N49400-03-H-A005-6007 did
not indicate a bona fide need in FY 2005 and did not meet the DoD FMR exception.
FISCSI Detachment Bahrain contracting officers circumvented the DoD FMR by
grouping work into contract N49400-03-H-A005-5002 that included bona fide needs
from different fiscal years, creating a bona fide needs violation, and a potential
Antideficiency Act violation if correct year funds are not available. Based on the actual
contract performance dates and the bona fide need in FY 2006, the contracting officers
should have solicited and issued two contracts, using FY 2005 funds for the USS
Chinook and FY 2006 funds for the USS Firebolt. NSSA Detachment Bahrain personnel
should correct the funding on half of contract N49400-03-H-A005-5002 and all of the
modifications on contract N49400-03-H-A005-6007, valued at a total of $4.1 million,
with appropriate year funds, if funds are available; if not, an Antideficiency Act violation
has occurred. The Assistant Secretary of the Navy (Financial Management and
Comptroller) should initiate a preliminary review of the potential Antideficiency Act
violation within 10 days to determine whether a violation occurred and complete a
preliminary review within 90 days as required by DoD Regulation 7000.14-R, “DoD
Financial Management Regulation,” volume 14, chapter 3, “Preliminary Reviews of
Potential Violations.” The Assistant Secretary of the Navy (Financial Management and
Comptroller) should also provide the results of the preliminary investigation to our
office. As a result of missing documentation and funding issues, the Commander FISCSI
should perform a review and as appropriate initiate administrative action for the
contracting officers for contracts N49400-03-H-A005-5002, N49400-03-H-A005-6002,
and N49400-03-H-A005-6007.

Legal Review Not Performed
Naval Supply Systems Command Instruction 5801.1, “Referral of Contractual Matters to
the Office of Counsel,” September 8, 2009, requires a review by local counsel for
contractual matters above $100,000 for FISCSI. The Naval Supply Systems Command
Instruction also states that the contract file should reflect that counsel has reviewed and
agreed, or that all outstanding issues have otherwise been resolved. Because the contract
files lacked a legal review, we could not determine that the FISCSI Detachment Bahrain
legal counsel reviewed and approved the contracting officers’ decisions during contract
award and administration. A legal review by the legal counsel may have prevented the
potential funding violations for contract N49400-03-H-A005-6007. FISCSI Detachments
Bahrain and Dubai personnel should require contracting officers to obtain legal counsel
reviews for contractual matters above $100,000, and ensure that the contract file reflects
that decision in accordance with Naval Supply Systems Command Instruction 5801.1.

Contract Signed Before Verifying the Availability of
Funds
The FISCSI Detachment Bahrain contracting officer signed contract N49400-03-H-
A005-5002 on September 28, 2005, for $7 million. The contracting office provided
funding documents, dated August 31, 2005, that supported $6 million in funds that were
available for the contract. The contracting officer also provided funding documents that


                                            33 

supported an additional $1 million in funds available; however, these documents were not
approved until September 29, 2005, which is after the contracting officer signed the
contract on September 28, 2005.

According to FAR 32.702, the contracting officer is responsible for obtaining written
assurance that funds are available before obligating the Government, or the contracting
officer must ensure that an “availability of funds” clause is included in the contract
award. However, none of the contracts contained the FAR-required “availability of
funds” clause. The contracting officer issued contract N49400-03-H-A005-5002 before
verifying the availability of funds, as required by FAR 32.702. Since $1 million in funds
were not available for contract N49400-03-H-A005-5002, the contracting officer
obligated the Government in excess of funds available, which is prohibited by
31 U.S.C. 1341. FISCSI Detachments Bahrain and Dubai contracting officers should
always verify in writing that funds are available before awarding contracts.

Documents Missing From Contract Files
In addition, the FISCSI Detachments Bahrain and Dubai contracting officers did not
verify the contract files for N49400-03-H-A005-5002, N49400-03-H-A005-6002, and
N49400-03-H-A005-6007 were complete and that they contained a copy of the contracts
signed by the contractor. Section 1501, title 31, United States Code, “Documentary
Evidence,” states that a Government obligation must be supported by a written, binding
agreement between the Government and another party that specifies goods to be
delivered or services to be provided and is executed before the end of the appropriation or
fund period of availability.

FAR Subpart 4.8, “Government Contract Files,” also requires the head of the contracting
office to establish contract files that contain records of all contractual actions. The
contract files should be sufficient to show a complete history of the transactions to
provide a complete background for making informed decisions. The contracting officers
for contracts N49400-03-H-A005-5002, N49400-03-H-A005-6002, and
N49400-03-H-A005-6007 did not keep adequate contract files. The FISCSI Detachments
Bahrain and Dubai contracting officers should perform a review related to missing
documentation of contracts N49400-03-H-A005-5002, N49400-03-H-A005-6002, and
N49400-03-H-A005-6007.

Conclusion
FISCSI Detachments Bahrain and Dubai contracting officers should have funded half of
N49400-03-H-A005-5002, and all of the modifications on contract N49400-03-H-A005-
6007 with FY 2006 funds instead of FY 2005 funds. This occurred because NSSA
Detachment Bahrain personnel provided FY 2005 funds to be used on services received
in FY 2006. Therefore, FISCSI Detachments Bahrain and Dubai contracting officers did
not verify they properly obligated the Government for half of contract N49400-03-H-
A005-5002 and all of the modifications on contract N49400-03-H-A005-6007 valued at a
total of $4.1 million. By using the wrong year funds, FISCSI Detachments Bahrain and
Dubai contracting officers may have circumvented Congress’ constitutional powers of



                                            34 

controlling the budgetary expenditures made by the Federal Government, and created a
potential Antideficiency Act violation.

Recommendations, Management Comments, and Our
Responses
D.1. We recommend that the Assistant Secretary of the Navy (Financial
Management and Comptroller):

       a. Initiate a preliminary review of the potential Antideficiency Act violation
within 10 days to determine whether a violation occurred.

       b. Complete a preliminary review within 90 days as required by DoD
Regulation 7000.14-R, “DoD Financial Management Regulation,” volume 14,
chapter 3, “Preliminary Reviews of Potential Violations,” and provide the results of
the preliminary investigation to the Office of Inspector General.

Management Comments
The Director, Program Analysis and Business Transformation, DASN (A&LM),
responding for the Assistant Secretary of the Navy (Financial Management and
Comptroller), agreed with Recommendations D.1.a and D.1.b. The Director stated that
FISCSI completed a review of the contracts before November 16, 2010. The Director
also stated that the Assistant Secretary of the Navy (Financial Management and
Comptroller) will take the necessary action to initiate a preliminary investigation with the
appropriate command that will be completed by February 22, 2011.

Our Response
The Director, Program Analysis and Business Transformation, DASN (A&LM),
comments are responsive. No further comments are required.

D.2. We recommend that the Commanding Officer, Fleet and Industrial Supply
Center Sigonella, require that the Fleet and Industrial Supply Center Sigonella,
Detachment Bahrain, and the Fleet and Industrial Supply Center Sigonella,
Detachment Dubai:

       a. Require contracting officers to obtain legal counsel reviews for
contractual matters for more than $100,000 and ensure that the contract file reflects
the counsel’s decision in accordance with the Naval Supply Systems Command
Instruction 5801.1, “Referral of Contractual Matters to the Office of Counsel,”
September 8, 2009.

Management Comments
The Director, Program Analysis and Business Transformation, DASN (A&LM),
responding for the Commanding Officer, FISCSI, agreed. The Director included
references to Navy Instructions requiring legal counsel reviews, including the Naval
Supply Systems Command Instruction 5800.1, “Referrals to Offices of Counsel, the


                                            35 

Naval Supply Systems Command Claimancy,” September 16, 2009; Naval Supply
Systems Command Instruction 5801.1, “Referral of Contractual Matters to the Office of
Counsel,” September 8, 2009; and the FISCSI Instruction 5801.1, “Commanding Officer,
FISCSI Italy,” August 17, 2009. The Director stated in his response to Recom-
mendation C.1.a that FISCSI RCD implemented a centralized database on November 23,
2010. According to the Director, this database tracks all legal reviews. He stated that a
contract specialist will input the transaction into the database. The Director also stated
that the database would be updated for the results of the legal review once the transaction
is complete. In addition, the Director stated that the database will be queried and cross-
checked periodically to ensure that all contracting actions are receiving a proper legal
review.

Our Response
The Director, Program Analysis and Business Transformation, DASN (A&LM),
comments are responsive. No further comments are required.

       b. Verify that the contracting officers document in writing that funds are
available before awarding contracts.

Management Comments
The Director, Program Analysis and Business Transformation, DASN (A&LM),
responding for the Commanding Officer, FISCSI, agreed. The Director stated that since
executing contract actions associated with Finding D, the Commander, FISC,
implemented policy in 2006 to include a standardized process that requires FISC
Comptroller office personnel to officially accept funds and verify in writing that they are
available. He further stated that a reference to the official acceptance documents and
dates is a requirement for all pre-award clearance documentation.

Our Response
The Director, Program Analysis and Business Transformation, DASN (A&LM),
comments are partially responsive. The standard operating procedure document included
with the Director’s comments does not support the requirement for funds acceptance as
indicated in his response. Also, the standard operating procedure was dated
November 14, 2004, before the award of the contract actions associated with Finding D,
not in 2006 as stated in the Director’s comments. Therefore, we ask that FISCSI provide
additional comments in response to the final report identifying the requirement or
standard operating procedure that requires funds acceptance before contract award.

       c. Perform a review of contracting officers’ actions related to missing
documentation and potential funding violations for contracts
N49400-03-H-A005-5002, N49400-03-H-A005-6002, and N49400-03-H-A005-6007,
and as appropriate initiate administrative action.

Management Comments
The Director, Program Analysis and Business Transformation, DASN (A&LM),
responding for the Commanding Officer, FISCSI, agreed. The Director stated that


                                            36 

FISCSI is currently reviewing the contracts for a potential Antideficiency Act violation,
and the Chief of the Contracting Office will wait for a full response from the Assistant
Secretary of the Navy (Financial Management and Comptroller) before determining
whether further administrative action is necessary. The Director stated that the estimated
completion date is March 31, 2011.

Our Response
The Director, Program Analysis and Business Transformation, DASN (A&LM),
comments are partially responsive. Although FISCSI agreed with the recommendation, it
is unnecessary for FISCSI to wait for a full response on the potential Antideficiency Act
violation before deciding on administrative action against the contracting officers. NSSA
personnel agreed that incorrect funding was used and is working to correct the funding
issues as indicated in the response to Recommendation D.3. In addition, the contracting
officers did not ensure availability of funds or maintain complete contract files, including
legal reviews or contractor-signed contracts. Therefore, we request that FISCSI provide
additional comments in response to the final report identifying whether FISCSI intends to
take administrative actions against the contracting officers.

D.3. We recommend that the Officer in Charge, Norfolk Ship Support Activity
Detachment Bahrain correct the funding for half of contract
N49400-03-H-A005-5002 and all of the modifications on contract N49400-03-H-
A005-6007 with the appropriate fiscal year funds, if available.

Management Comments
The Director, Program Analysis and Business Transformation, DASN (A&LM),
responding for the Officer in Charge, NSSA Detachment Bahrain, agreed. The Director
stated that NSSA personnel are working with FISC Bahrain and United States Fleet
Forces Command to identify appropriate fiscal year 2006 funds to correct the funding,
with an estimated completion date of September 30, 2011.

Our Response
The Director, Program Analysis and Business Transformation, DASN (A&LM),
comments are responsive. No further comments are required.




                                            37 

Appendix A. Scope and Methodology
We announced the audit in March 2009 and then split the project into four projects. We
conducted this performance audit from November 2009 through November 2010 in
accordance with generally accepted government auditing standards. Generally accepted
government auditing standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

This is the fourth in a series of reports on the Army and Navy ship maintenance contracts.
We selected a judgment sample of 14 FISCSI Detachments Bahrain and Dubai contracts,
13 issued under basic ordering agreements and 1 additional FISCSI contract; 15 Army
contracts; and 7 Naval Sea Systems Command technical instructions5 awarded from
FY 2004 through FY 2009 (valued at $95,189,078) based on geographical location and
high dollar value. We selected this judgment sample from a universe of 2,934 ship repair
and maintenance contracts valued at $171,901,765. These 2,934 contracts were awarded
or modified from FY 2004 through FY 2009 with place of performance located in
Southwest Asia. However, during the fieldwork stage of the audit, the team identified
that the potential issues pertaining to FISCSI, Army, and Naval Sea Systems Command
contracts were notably different. Therefore, we split the original project into four
separate projects. This report addresses 14 FISCSI Detachments Bahrain and Dubai
contracts, valued at $35.3 million. We met with officials from FISCSI Detachment
Naples, FISCSI Detachment Bahrain, FISCSI Detachment Dubai, NSSA Detachment
Bahrain, and Military Sealift Command.

This project focused on the 14 FISCSI Detachments Bahrain and Dubai contracts
observed during our site visit to the FISCSI Detachment Bahrain and FISCSI Detachment
Dubai contracting offices in Manama, Bahrain, and Dubai, United Arab Emirates, from
May through June 2009. The 14 contracts were awarded from December 2004 through
March 2009. The results of the review of the 14 FISCSI Detachments Bahrain and Dubai
contracts are included in this report.

We reviewed Federal and DoD criteria regarding quality assurance and surveillance to
evaluate whether the FISCSI Detachments Bahrain and Dubai contracts complied with
criteria. We conducted extensive research of Federal and DoD criteria relating to
contract quality assurance and surveillance requirements, competition, and price
reasonableness requirements. The specific criteria reviewed included the U.S.C., FAR,
DFARS, and Government auditing standards.

We reviewed the FISCSI Detachment Bahrain and Dubai contracting files, including
contracts, contract solicitation, contract modifications, contract work specifications,

5
 For discussion of technical instructions see DoD IG Report No. D-2010-0087, “Weaknesses in Oversight
of Naval Sea Systems Command Ship Maintenance Contract in Southwest Asia,” September 27, 2010.



                                                 38 

MARAV agreements, business clearance memorandums, independent government cost
estimates, and COR designation letters. We also reviewed the NSSA surveyor files,
including surveillance documentation and contractor testing reports. We also reviewed
contractor invoices. We reviewed these documents for compliance with the U.S.C., FAR,
DFARS, and Government auditing standards relating to contract quality assurance and
surveillance requirements, competition, and price reasonableness requirements.

Use of Computer-Processed Data
We used computer-processed data from the Federal Procurement Data System-Next
Generation database to help choose our judgment sample of contracts for the audit. We
queried all contract actions related to ship maintenance performed in the U.S. Central
Command area of responsibility since FY 2004. However, we did not rely on this data to
support our findings. Therefore, we did not perform a reliability assessment of the
computer-processed data.

Prior Coverage
During the last 5 years, the Department of Defense Inspector General (IG) and Naval
Audit Service have issued six reports discussing Army and Navy ship repair, and
contracting activities at the FISCSI. Unrestricted DoD IG reports can be accessed at
http://www.dodig.mil/audit/reports. Naval Audit Service reports are not available over
the Internet.

DoD IG
DoD IG Report No. D-2010-0087, “Weaknesses in Oversight of Naval Sea Systems
Command Ship Maintenance Contract in Southwest Asia,” September 27, 2010

DoD IG Report No. D-2010-064, “Army Vessels Maintenance Contracts in Southwest
Asia,” May 21, 2010

DoD IG Report No. D-2010-005, “Information Security at the Fleet and Industrial Supply
Center, Sigonella, Detachment Bahrain,” November 3, 2009

DoD IG Report No. D-2008-083, “Obligation of Funds for Ship Maintenance and Repair
at the U.S. Fleet Forces Command Regional Maintenance Centers,” April 25, 2008

Navy
N2010-036, “Department of the Navy Acquisition Checks and Balances at Fleet and
Industrial Supply Center Sigonella Naval Regional Contracting Detachments Bahrain and
Dubai,” June 16, 2010

N2010-0008, “Selected Contracts and Contract Activities at Fleet and Industrial Supply
Center Sigonella, Italy,” February 5, 2010




                                           39 

Appendix B. Summary of Contract
Information in Our Sample
         Contract Number      FAR      Initial Award   Final Contract
                              Used         Value           Value
 1)   N49400-08-C-0022        13.5      $ 1,599,998      $ 3,618,686

 2)   N49400-07-G-A500-9059   13.5       1,763,129        2,048,507

 3)   N49400-07-G-A501-7032   13.5       791,050           914,349

 4)   N49400-07-G-A501-7081   13.5       668,894           837,035

 5)   N49400-07-G-A501-8038    15        1,383,643        1,748,719

 6)   N49400-07-G-A501-8139   13.5       2,430,782        3,381,865

 7)   N49400-07-G-A501-9045   13.5       1,035,764        1,186,205

 8)   N49400-07-G-A501-J001   13.5       608,966           743,085

 9)   N49400-07-G-A600-7001    15        4,295,155        4,326,025

 10) N49400-03-H-A005-6002     15        3,477,033        4,384,844

 11) N49400-03-H-A005-6007     15        3,508,380        4,135,358

 12) N49400-04-H-A501-5059    13.5       1,574,722        2,523,589

 13) N49400-04-H-A501-5120    13.5       1,335,147        1,799,791

 14) N49400-04-H-A501-6098    13.5       3,016,167        3,655,756

      Total                            $27,488,830      $35,303,814




                                40 

Assistant Secretary of the Navy (Research, Development,
and Acquisition) Comments




                                      DEPARTMENT OF THE NA:VY
                                    OFFLC! 0,- THE ASSI S TAN T 6EC 'UTARY
                                (RESEARCH. DEVELO~M£NT AND ACQUIS I T I ON )
                                           1000 NAVY P't:NTAGON
                                         WASHINGTON DC 205150·1000                     December 16, 20 I0

        MEMORANDUM FOR NAVY AUDIT (NAVIG-4J)

        SUBJECT:        Department of Defense, Office of Inspector General Draft Report on
                        Improvements Needed on the Fleet and Industrial Supply Center, Sigonella, Ship
                        Maintenance Contracts in Southwest Asia. Project No. D2009-DOOOAS-163.1)()2 of
                        November 16. 2010

                As requested by the subject Draft Report, Project No. D2009-DOOOAS- 163.002 the
        attached response is submitted.

               In addition to the responses provided to the specific findings, the following
        administrative changes are suggested:

                         8. The report refers to the "Commanding Officer, Norfolk Ship Activity
                            Detachment Bahrain." This should be corrected to slate "Officer in Charge,
                            Norfolk Ship Suppan Activi1YDetachment Bahrain" at eaeh occurrence .
                         b. The report should mention of period covered in the assessment. InspecLion'
                            was conducted in March 2009 and reviewed contracts awarded from 2004 to
                            early 2009.

               If
                                    Click to add JPEG file
                                                                                      please refer them to




                                                  ·4!~   Director. Program Analysis and
                                                          Business Transfonnation
                                                         Deputy Assistant Secretary of the Navy
                                                          (Acquisition and Logistics Management)
        Altachmcnt.s:
        As Stated

          Copy to:
        · RDA(FM&q
        MSFSC
        FISCSI
        OIC, SUPSHIP, Oct Bah";n
       HAVY COIIMBNTS TO DODIG DRAP'T UPORT ON IIIPROVDIKHTS
   NBBDBD ON THB PI.oUT AND INDUSTRIAL SUPPLY CJDITBR, SIGONBLLA
           SHIP KAINTBNAHCB CONTllACTS IN SOtJ'TBWBST ASIA
                 Project NUmber D2009 - DOOOAS-0163 . 002
                            16 Nov.aber 201Q

P1nding A. CODpetition    w• • Inappropriately   t.~ted


Recommendation_:

A. We recommend that the Commanding Officer , Fleet and
Industrial Supp l y Center , S1go ne11a, direct the Fleet and
Industrial Supply Center. 5igonella Detachment Naplee , a nd its
Detachments i n Bahrain and OUbai:

     1. Comply with competition requirements in the Federal
Acquisit ion Regulation Part 6, ~competi tion Requirements,W and
Federal Acqu is ition Regulation Part 13.5, ~ Test Program for
Certain Commercial Items, H as applicable , for all future ship
maintenance and repai r contracts even when work must be
accomplished by a Master Agreement for Repair and Alteration of
Ves~els holder , so that additional sources of competition can be
                     Click to add JPEG file
identified and encouraged.

Navy Ca.ment: Concur with the reco.aendation .

Through inte rnal review processes (i.e ., contract review boards,
quality assurance programs) FISCSI Code 200 had a lready
ascertained that t he offices in Bahrain and Dubai were not
executing competition for ship repairs prope r ly. There had been
a persistent misunderstanding t hat it was appropriate to limit
so l icited sources f o r repairs to sources located within a
specific geog raphical region . Additionally, there was a
misunderstanding o f Defense Federal Acqu i sition Regulation
Supplement (DFARS) s u bpart 217 . 7103-3 ~solic i tations for job
o r ders- which states that ~When a requirement arises within the
Ohited Scates or its outlying a r eas for the type of work covered
by the master agreement, solicit offers from prospective
contractors that - previously executed a master agreement; o r
have not previously execu ted a master agreement but possess the
necessary qualifications to perform the work and agree to
execute a master agreement b efore award of a job order."        By
f~ilin9 to sol i cit all possible ship repai r sources t he second
portion of t he OFAR5 policy was overl ooked .

Acti on Taken:
(1)   Prior to receipt of the DODIG draft report. FISCSI Code
200 , FISCSI Bahrain OGC counsel and staff from Norfolk Ship
Support Activity (NSSA) met to discuss the competition
requ i rements of the Competition in Contracting Act (CICA) and
DFARS 217.1103-3.

F I SCSI code 200 has undertaken a revision of 1) the local ship
repair policy memorandum and 2) the local Master Agreement for
Repair and Alteration of Vessels (MARAV) policy memorandum. In
furtherance of this revision, the Fleet team lead from the
Naples detachment was detailed on 01 October 2010 to
specifically research, rewrite and provide subsequent training
on these two policy memoranda. The revised policy will be
issued by 31 March 2011.  It will clearly explain the
appropriate competition requirements and processes for all ship
r@pair orders, including those und@r MARAV agreements. Training
on the revised policy will be completed by 15 April 2011 .

(2) Prior internal and external reviews indicated a clear lack
of understanding at all detachments and sites of the full
requirements of the CICA. to include publicizing requirements.
competing requirements and adequate documentation/ rationale for
                    Click to add JPEG file
failing to utilize full and open competition . As such. internal
training on the requ i rements of ClCA - to inc l ude publ ic izing,
appropriate exceptions and appropriate documentation of ClCA
exemptions - is planned for delivery to all detachments and
sites by 31 March 2011.

Our target completion date for all corrective actions for
Recommendation A. l is 15 Apri l 2011 .

Recommendation:

     2 . Update the Commander . Service Force Sixth Fleet / Naval
Regional Contracting Center. Instruction 42S0.2A. "Master
Agreement for Repair and Alteration of Vessels. Master Ship
Repair Agreement and Agreement for Boat Repair, ~ October 24 .
2002, t o require Fleet Industrial Supply Centers to conduct
market research to identify potential new contractors.

Navy Comment: Concur with th. recommendation.

As previously identif i ed in our response to Recommendation A.l.
FISCSI Code 200 has undertaken a revision of th~ Master
Agreement for Repair and Alteration of Vessels (MARAV) policy
memorandum . The need for an updated policy had already been
identified as a result of several internal r eviews. The

                                  2
ordering proees8 in place under the 2002 policy was clearly not
providing adequate attention to the underlying business basis
for various actions that were being undertaken. For example,
multiple market research reports were prepared and processed for
all MARAV job orders, yet actual market surveys. contact with
potential offerors, and robust endeavors to ensure all viable
vendors were contacted and developed for maximum competitive
benefit to accrue to the government was not occurring. In
short, the requirement to prepare and procese a market research
report for each job order consisted of little more than a ~cut
and paste U of the same information repetitively for each order.

Action Taken:

An  individual has been temporarily assigned within the FISCSI
Code 200 Policy Division with the principal responsibility of
revising the MARAV job ordering pol icy. This assignment
occurred on 01 October 2010, and will continue through 31 May
2011. This individual is conducting meaningful market research
and will prov i de thorough documentation of this market research
at a centrali~ed level. The ship repair market in the areas in
question is somewhat atatic. and does not change substantially
                   Click to add JPEG file
over time. However, the worki ng level distractions associated
with document generation to meet the process requirements can be
overcome by a centralized billet whose focus is strategic and
business oriented to ensure that maximum business benefits
accrue to the government during the ordering process. This
revised process wi ll also provide for the elimination of
repetitive paperwork at the working level (resulting from
largely static market forces), and allow the placement of job
o rders to ensure the independent government cost estimate ( IGeE)
is meaningful, and engage in appropriate negotiations and price
analysis for each individual order. The revised policy will be
issued by 31 March 2011 .

Our estimated target completion date for completing all
corrective actions for Recommendation A.2 is 31 March 2011 .

Recommendation:

      3. Perform a review of contracting officers' actions related
to limiting competit ion for contracts N49400-07 -G-AS01 -70 Bl,
N494 00-07-G-ASOI-B038 , N4940007-G-AS01-8139, and N49400 -0?-G-
AS01 -90 4S. N49400-03 - H- AOOS - 6002, N4940003 -H- AOOS-600?, and
N49400-07-G-A600 - ?OOl , and as appropriate initiate
administrative action .


                                 3
NAVY Comment : Conour with the recommendation.

Action Taken:

All of the subject contracts have been reviewed in relation to
limiting competition. Our corrective admi n istrative actiona in
response to Recommendations A . 1 and A.2 should preclude further
inappropriate limitations to competition.

Our estimated target completion date for completing a~l
admi n istrative corrective actions for Recommendation A.3 is 15
April 2011 .

7inding B . Xmprov. . .nta W.eded f or       Dete~ning     Prie.
Rea.onablen•••

RecOlIIIIIlendation :

B . l. We recommend that the Commanding Officer, Fleet and
I ndustrial Supply Cente r , Sigonella, direct the Fleet and
Industrial Supply Center, 5igone11a Det~chment Naples, and its
Detachments in Bahrain and Dubai to require the cont r acting
                           Click to add JPEG file
officer s to document fair and reasonable price determinations
for all future contract action s with price changes ae required
by Federal Acquisition Regulation 15 . 406-3, ~ Documenti ng the
n egotiation,- or Federal Acquisition Regulation 1 3 . 106-3 , ~Award
a nd documentation .-

Navy   Comment:         Concur with the reca.menda tion.

FISCSI Code 200 had previously noted via internal r eviews that
fair and reasonable price determinations at all detachments and
site s have not met applicable standards.

Action Taken:

(1) FISCSI Code 200 has procured a five -day price analysis
cour se from a respected commercial vendor which is scheduled for
delivery 24-28 January 2011 . This course can be light ly
tailored to mee t the specific needs of FISCSI, and as such the
vendor has been asked to foc u5 a portion of course content on
the use of IGCE's as a method to establish price reasonableness.
Additionally, the vendor has been Asked to dedicate additional
course content on conducting price analyses of ship repair
proposals when the IGCE provided cannot be used to establish
price reasonableness .


                                         4
(2 ) On 15 November 2010, FISCSI Code 200 implemented a
requirement to perform mandatory second level reviews of all
procurement transactions. This implementation occurred via the
removal of release authority in the procurement desktop defense
(P02 ) automated contract writing system except for the team lead
positions . This mandate requires all team leads review every
procurement t ransaction to identify any quality issues
associated wi th the fair and reasonable price determination.
Implementation of this second level review along with providing
the specific targeted training will help ensure all price
determinations are fully documented and determined to be
reasonable in accordance with procurement regulations .

Our es t imated target completion date for completing all
corrective actions for Recommendation 8 . 1 is 31 January 2011.

Recommendation:

B. 2. We recommend that the Commandi ng Officer, Norfolk Ship
Support Activity Detachment Bahrain, review the methodology for
developing independent government cost estimates to determine
that they include sufficient supporting documentation for the
                     Click to add JPEG file
o riginal estimates and any change to the estimates .

Navy CODIIZlent:   Concur wi th the recommanc1ation.

Action taken:

In January 2010 the NSSA Detachment Bahrain provided training on
developing independent government cost estimates to the
surveyor's using the Joint Forces Maintenance Manual format for
specifications.

Correct i ve actions are considered complete for report ing
purposes .

Pinding C. xneufficient Contract Surveillance



C.l. We recommend that the Commanding Officer, Fleet and
Industrial Supply Cent er, Sigonella, require that t he Fleet and
Industrial Supply Center, Sigonella Detachment Napl es , and i ts
Detachments in Bahrain and Dubai :

      a. Designate contracting officer's representatives on all
current and future ship ma i ntenance and repair contracts using a

                                     s
designation letter containing all of the elements in Defense
Federal Acquisition Regulation Supplement Procedures , Guidance,
and Information 201.602-2,   ~ Respons1bilitie8.N

Navy Comment: Concur with the recommendatio n.

It is noted that the current Defense Federal Acquisition
Regulation Supplement (DFARS) subpart 201 .602 -2 does not require
appointment of a Contracting Officer's Representative (COR) for
all contracts, rather only those contracts for services . In
accordance with a Naval Sea systems Command (NAVSEA) opinion .
ship repair has been properly designated as a       ~supply"   contract
in lieu of a -service- cont ract. This implies the use of a COR
is not a requirement for ship repair contracts, but rather a
matter of judgment . Nevertheless, FISCSI Code 200 had
previously ascertained ship repair contracts are of such a
critical nature, the use of a COR is appropriate. The
requirement for the appointment of a COR in all ship repair
contracts will be an element of the aforementioned local ship
repair policy memorandum and local Master Agreement for Repair
and Alt e ration of Vessels (MARAV ) policy memorandum rewrites
which will be concluded by 31 January 2011.
                  Click to add JPEG file
Action Taken:

(1) On 23 November 2010, FISCSI Code 200 implemented a database
to track all contracts - including ship repair contracts - where
a COR is designated. This database's Standard Operating
Procedure mandates entry of all requirements associated with the
us e of a COR, including proper documentation of COR training
requirements, issuance of a designation letter, and annual
review meetings between the Contract Administrator and
designated COR. Initial data entry into this database has
commenced with an estimated completion date of 30 December 2010.

(2) The revised ship repair and MARAV policies, with an
estimated target completion date of 31 January 2011, will also
include a standardized process for ensuring appropriate
inspection and acceptance documentation for all ship repair
transactions is obtained from the COR during review meetings or
prior to the conclusion of the contract (whichever is first ) ,
and included in the official contract file to ensure full
compliance with the inspection and acceptance processes outlined
in FAR Part 46 (~Quality Assurance W ) •

Our estimated target completion date for completing all
corrective act i ons for Recommendation C.l.a is 31 January 2011.

                                  6
        b O, Require that a ll designated contracting officer'   9
representatives receive required contracting officer
representative training.

Navy Comaentl Concur with the recomaendatiOQ.

CORs will be required to complete COR training prior to
appointment . The contract tracking database will be annotated
with the COR training comple tion dates ,

Corrective actions are considered complete for reporting
purpo ses.

       c. Require that contracting officer acceptance of
supplies and services be performed 1n accordance with the FAR on
current and future contracts.

Navy Comment I Concur with the recommendation.

The revised ship repair and MARAV policies, with an estimated
target completion date of 31 J4nuary 2011, will also require the
                  Click to add JPEG file
inclusion of the Contract Administration Plan (CAP) in all ship
repair contracts. The anticipated language pertaining to the
COR's receipt and acceptance procedures for incorporation in the
revised MARAV is underlined,

Our estimated target completion date for completing all
corrective actions for Recommendation C.l.c is 31 January 2011.

Rec~dation:


C . 2 . We recommend that the Commanding Officer, Norfolk Ship
Support Activity Detachment Bahrain:

     a.     Develop a standard operating procedure outlining the
organi za tion and documentation requ ired for the surveyor files .

       h.    Require the surveyors or other designated contracting
officer's representatives to mai ntain files on all current and
fut u re contracts that contain all of the required reports in the
specifications and sign surveillance reports.

Navy Co. .ent: Concur wi tb the   r.c~n4ation.


As noted above NSSA Detachment Bahrain is assisting FISCSI on
the rewrite of the local ship repair policy memorandum and the

                                   7
local MARAV policy memorandum. This policy memorandum will
include ~ standardized process for ensuring appropriate
inspection and acceptance documentation for all ship repair
transactions is obtained and does comply with FAR Part 46. NSSA
Detachment Bahrain is in the process of commencing t rain ing
personnel for COR certification .

Our estimated target completion date for completing all
corrective actions for Recommendation C.l.c is 31 January 2011 .

Recommendation:

C.3 We recommend that the Director, Military sealift Fleet
Support Command, require the port engineer or other designated
contracting officer representatives to maintain files on all
current and future contracts that contain all of the required
reports in the specifications and that this information be
retrievable and t raceable to the contract surveillance
requirements .

Navy Comment: Concur with the recommendation.

Action Taken:      Click to add JPEG file
The Military Sealift Fleet Support Command (MSFSC ) developed and
implemented Standard Work Item (SWI) 004, Testing and Quality
Assurance (Attachment A) . SWI 004, paragraph 1.2 describes the
Test & Inspection Record (TIR) to be maintained for each work
item. SWI 004, paragraph 1.7 requires a copy of all records as
defined by paragraph 7.2 to be submitted to the Contracting
Officer within ten (10) days of contract completion. In
aCcordance with FAR 4.805 MSFSC Contracting maintains records
(and related records or documents, including successful
proposals ) for a period of 6 years, 3 months after final
payment. MSFSC N7 haa been tasked with monitoring the proper
usage of all Standard Work Items.

Corrective actions are considered complete for reporting
purposes.

Pinding D. Contract Actions for $4.1 Million Were Incorrectly
Funded

Recommendation :

D.l. We recommend that the Assistant Secretary of the Navy
(Financial Management and Comptro l ler ) :

                                8
     a.     Initiate a preliminary review of the potent i al Anti -
deficienc y Act violation within 10 days to determine whether a
violation occurred.
     b.    Complete a preliminary review within 90 days as
r equi r ed by DOD Regulation 7000.14 - R,   ~DOD   Financial Management
Regulation/~ volume 14, chapter 3, ·Preliminary Reviews of
potential violations,~ and provide the r esults of the
preliminary investigation to the Off ic e of Inspector General.

Navy Comment: Con cur with the recomme nda tion .

Action taken:

FISCSI completed a r eview of t h e fac t s and circumstances of the
ship maintenance contracts in question prior to the relea s e of
the draft DODIG Report.

ASN (PM&C) will take the necessary action to direct a
pre l iminary investigation with the appropriate command in
accordance with the timelines prescribed in the PMR Volume 14,
Chapter 3.            Click to add JPEG file
Our estimated target completion date for completing all
corrective actions for Recommendation O.l.is 22 February 2011.

Rec ommendation a:

0.2. We recommend that the Commanding Officer, Fl eet and
Industrial Supply Center Sigonella, require that the Fl eet and
Industr i al Supply Center s i gonella. Detachment Bahrain . and the
Fleet and Industrial Supply Center Sigonel la, Detachment Oubai:

       a. Require contrac t ing officers to obtain legal counsel
reviews for contractual matters for more than $100,000 and
ensure that the cont r act fi l e r eflects the counsel's decision in
accordance with the Naval Supply Systems Command Inst r uction
5801.1. -Referr al of Cont ractua l Matters to the Office of
Counsel, M September B. 2009.

Navy Comme nt: Con cur wi t h t he r e c ommen dation.

Instructions for referral to legal counsel are provided in
NAVSUPINST 5800.1 (Referrals to Offices of Counsel) dated 16
September 2009 (See Attachment B), NAVSUPINST 5801 .1 (Referral
of Contractual Matters to the Office of counsel ) dated 8

                                      9
September 2009 (See Attachment C), and FISCSIINST 5801.1 dated
17 August 2009 <See Attachment D).

The FIseSI Code 200'8 implementation of a centralized database
for tracking the variou5 action5 referenced in the response to
Recommendation C.l also requires all legal reviews to be tracked
in this database. When a transaction is submitted to legal for
review , the Contract Specialist will input the transaction into
the database. Following a legal review, the database will be
updated with any comments from this review. The database will
be queried and cross-checked periodically to ensure all
contracting actions are receiving a proper legal review.
Corrective actions are considered complete for reporting
purposes .

       b. Verify that the contracting officers document in
writing that funds are available before awarding contracts.

Navy Commentl Concur with the recommendation.

Contrac t actions associated with Finding D were executed in 2005
and 2006, prior to the implementation of a standardized process
                   Click to add JPEG file
for funds acceptance specified by the commander. Fleet and
Industrial Supply Centers (COMFISCS) (See Attachment E) . This
process requires funds to be officially accepted by the
COMFICSCS Comptroller office. Reference to the official
acceptance documents and dates 1s a r equirement for all pre-
award clearance documentation, for simplified acquisition
procedures (SAP) and large contracts. As such. t he requirement
to verify that funds are available in writing hag been in place
since mid-2006.

Corrective actions are considered complete for reporting
purposes.

         c. Perform a review of contracting officers' actions
related to missing documentation and potential funding
violations for contracts N49400 -03-H- AOOS-S002. N49400-03-H-
AOOS-6002, and N49400-03 - H- AOOS-6007, and a s appropriate
initiate administrative action.

Navy eomment:   Concur with recommendation.

Action Taken;

1.   FISCSI is in the process of reviewing these contracts for
the possibility of potential Anti - Deficiency Act violations.

                                 10
Any potential violations will be reported in accordance with the
Department of Defense Financial Management Regulation Volume 14,
Chapter 3 '030101 . The Chief of the Contracting Office will
await a full response from ASN (FM&C) before determining if
further administrative action is warranted.

Our estimated target completion date for comp le ting all
corrective actions for Recommendation D.2.c is 31 March 2011 .

Recommendations

D.3. We recommend that the Commandi ng Officer, Norfolk Ship
Support Activity Detachment Bahrain correct the funding for half
of contract N49400-03-H -AOOS-S002 and al l of the modifications
on contract N49400 - 03-H -AOOS-6007 with the appropriate fiscal
year funds , if available.

Navy comment:     Concur with recomaendation.

NSSA and NSSA Detachment Bahrain recognize the potential impact
of this finding and are working with FISC Bahrain and USFF
(NOaF) to identify appropriate FY 06 funds to correct the
                     Click to add JPEG file
funding impropriety ident ified .

Ou r estimated target completion date for completing a ll
corrective actions for Recommendation D.2.c is 30 September
2 011.




                                   11
- - - - - -- - - - -_ ._ - -- - - - --                                                                     -- -

                                                USNS Anysh;p
                                                 (T-XXXX)

     GENERAL REQUIREMENTS                                                RFP NO. N40442-08-R-XXX
                                                                                      26 APR201 0
     ITEM NO. 004                               Category "NSP                MSFSClSTD004IREV I

     TESJING AND QUALITY ASSURANCE

     1.0   ABSTRACT
           1.1  This item require:!! that the OfTerors and Conlmctor ha.ve in place an effective
                Quality Assurance Program and thac such program be implemented in the
                planning and performance of this contract.
     2.0   REFERENCES

           2. 1     MIL-I-45208 (scrics), lnspection Systems

     3.0   11Th! LOCATJON/!)ESCRIPTION

           3.1      Performance ofQuaJity Assurance at the ContntCtor's racility.

     4.0   GOVERNMENT FURNISHEQ EO\JlPMFNTtMATERIAVSERYICES- None

     5.0   ~

           5.1                Click to add JPEG file
                  The Government may at any time without prior notification to the Contractor elect
                    to obtain the services ofGovemment Furnished Technical Rcprescntalive{s) who
                    will be on site at the Contraaor's facility acting as the Govenuncnt's Quality
                    Assurance observer and consultant. The presence: of Government Fumished
                    Technical Representalivc:(s) docs not relieve: the Contracto r from performing any
                    part   of this work item.
           5.2      The contractor and all subcontractors reprdlesl of tier shall consult the General
                    Technical RcquiremC'llts (OTR) to detennine applicability to this work item., In
                    performance of this work item. the COntractor and all S\I'bconlraCtors regardless of
                    tier must comply with the requirements of all applicable GTRs including but not
                    limit.d to GTRs (I) through (7).

     6.0   QUALITY ASSURANCE REQUIREMENTS
           6.1      The Government reserves the right to perform a Pre-award Survey of the
                    Apparently Successful Offeror's facility, durina which survey an inspection ofche
                    in phtce Quality Assurance system's perfonnancc attributes in all areas may be
                    subjec.t to ex.amination and review.

           6.2      Offerors., and the s uccessful CO/llrDc1.Or, are herewith notified that Regulatory
                    Body and MSC 'inspections are independent ofthc contractor's function of Quality


                                                    004-1

                                                                                  Attachme nt A
      - - - -- -- - - - - --- - --

                                      USNS Anyship
                                        (T-XXX X)

GENERAL REQUIREMENTS                                               RFP NO_N40442-08-R-XXX
                                                                               26 APR 2010
ITEM NO,OO4                           C.ICgOfy -NSP                      MSFSCJSTDOO4IREV I

TESTING AND QUALITY ASSURANCE
            Assurance. The contractor is not to rely upon MSC IX Regulatory Bodie!> or their
            agents 10 perfonn iI's quality assurance jn~peclioR5 or leSL~ .

7.0   STATEMENT OF WORK REOUIRED

      7,1   CONTRACTOR INSPECTION SYSTEM REQUIREMENTS

              7,' _,       QUALITY ASSURANCE PLANIMANUAL

                    7. 1.1.1   The ContraCtor mall document his jn .~pcction sY5tem.
                               identifying the method of implementing the requirements
                               contained herein. Implementation of the Contractor'" System
                               shaU be through a Quality Assurance Plan or Manual. n.c
                               Quality Assurance Plan or Manual will be approved ror use by
                               the Se:nior Shipyard O rficial and shall be available for review
                       Click to add JPEG file
                               by the Government prior to the initiation of productive work. 11
                               shall meet the requiremenL~ of reference 2. 1 or 2.2 as a
                               minimum including:

                                a.   A funclionl:ll organization chart showing o\lerall company
                                     management.

                                b. TIle quality assur.mce organization.

                                c. A desc.ripcion of the Contracto(s Quality Control System.
                                d.   The as~ignmenl of specific respons ibility for the
                                      following elements of Quality Control incluwng written
                                      procedures specify;ng the methods of imp lemen talion;
                                        i.   Performance and witnc......ing of lest:s and
                                              inspcx:tioos.
                                      ii.    Preparation and mainlcnancc of records.
                                      iii.   Control of non-confonning material.
                                      iv.     Corrective action sy~te m.
                                      v.      Receipt inspection .
                                      vi. Subcontractor control.
               7, 1.2      TEST 01> INSPECTIONS


                                             004-2
                                   USNS Anyship
                                    (T-XXX X)

GENERAL REQUIREMENTS                                             RFP NO. N40442-08-R-XXX
                                                                              26 APR 2010
rreM NO. 004                                                         MSFSClSTDOO4IREV I

TF.<mNG AND OUALITY ASSURANCE
               7. 1.2.1     Inspection personnel shall be qualified to perfonn the duties
                            u!:igned and authorized to make an occeptireject
                            determination for the ConltaClor.

                             a. Submit a list of Contractor penonnel          authori~cd 10
                                  witness, and accept the sign off inspection and tests listed
                                  On Contractors Test & Inspection Records (TIR's).
                                  Include petSonneltitlelposition in corporate ~tl\lcture .

                             b.    Submit a list of liubcontrac:tor firms which are authorized
                                  to independently witness. accept and sign off inspections
                                                                         or
                                  and tests listed on TlR's on behalf the Contractor.
                                  ldentifyeach authorir..cd subcontractor firm by name and
                                  address. by   won:  item number. paragnph(s). and sub
                                  paragraph(s) which the subcontractors are to accompli~h.
               Click to add JPEG file
                                  The identifiCation shall be as broken down in the
                                  statement of work for that work item and the produc.tion
                                  planning document prepared for the Contractors Offer
                                  and this Contract.

                             C.    Li[l;Lo; of contractor and subcontractor personnel shall be
                                  submitted as pan of the offered solicitation'li t«hnical
                                  proposal. LisL~ shall be amended as changes: in personnel
                                  or subcontractors occur. Changes shall be subject 10
                                  approval of the Contncting Officer (PC() prior to award
                                  or ship delivery/ACO (COR) after dc:livery) in
                                  accordance the Clause H·ll "substitution of personnel".

                             d.      The ConU'8Clor shall verify that all te.... ts. inspections and
                                    work conform to conlcact requirements prior to
                                    presentation 10 the MSREP for acceptance. In the event
                                  . thai specific criteria are nOl provided in the work item.
                                    the contractor shall verify that the: te.'il~. inspeClions or
                                    work mc:c:t Regulatory Body Re.quitements (ABS. USCG
                                    etc.,) prior (0 preo;enlation to the MSCREP (or
                                   acceptance.

                   1 .1.2.2 Final determination of accepu.bility !;haJI be made by the
                            MSCREP.

                                          004-3
                                     USNS Anyship
                                       (T-XXX Xl

GENERAL REQUIREMENTS                                             RFP NO. N40442<l8-R-XXX
                                                                              26 APR 2010
ITEM NO. 004                          Category- -NSP                  MSFSClSTD004IREV I

TESTING AND QUALITY ASSURANCE

      7.2   DOCUMENTAnON

               7.2.1      Contractor Inspection Records

                   7.2. 1.1    The Contractor shall prepare a Test & InspecLion Record (11R)
                               for each spociflCalion item in the contract which requires
                               productive work. TIR's shall be developed for each
                               specification work item or change prior to productive work
                               being accomplished for thal item. TIR's at a minimum shall,
                               include the following:

                                  a. Identification by Solicitation/Contract Number, Ship
                                     name and Govemment Work hem Number.

                                   b. IdentifICation of each unit to be inspected by name,
                  Click to add      JPEG
                           number, and location (e.gfile
                                                     . Number 2 SSTG. Pan
                           Condenser. Cargo Winch Number 12, elc). Where
                                      multiple units are contained within a work item, an
                                      entry on the nR   shall be made (or each unit.

                                   c. Tbe listing of each speci fi c inspection attribute. method
                                      of inspection or test and the acceptance/rejection .
                                      crituia .

                                   d. Acceptability or rejection of each inspection attribute
                                      lIhal! be indicated and shall be ~igned and dated by
                                      authorized personnel.

                                   e. All TlR's shall be updated a... work progresses and
                                      maintained cutrent to within twenty-four (24) houts.

                   7.2.1.2       Test and Inspection Records (TIR's) are abo required (or all
                                 work associated with:

                                   a . All p~.priced Option Items (at the lowest line item
                                       level) which ~ activated by Change Orders.

                                   b. All Change Orders issued. whether within the amount
                                      of man -hol.lr~ conlaiaed in Ihe clause h· S ~ Additional
                                                                         Final Report 

                                                                          Reference


                                                                       We omitted a
                                                                       portion of the
                                                                       attachment due to
                                                                       length. The
                                                                       attachment
                                                                       included the Naval
                                                                       Supply Systems
                                                                       Command
                                                                       Instruction 5800.1,
                                                                       Naval Supply
Subject ,   lOP for acp prooe ••                                       Systems Command
                                                                       Instruction 5801.1,
                                                                       and the FISCSI
aDal, (1)   ac.   C~r ~t ID8truotio~/ac. C0ger~t
                                                                       Instruction 5801.1.
      (2) at,     ~oe •• for COAtraotiQg   Off ioer .
      (3) le&rcIh   J)inct: RCP DocNMDt.



1 . Purpo•• : This SOP describe. ~he general operating procedurel
tor managinV the procea, of cond~cting financial review. and
approval. of Direct Cite Request for Contracting Procurement
(Rep) received by NAVSUP tield activities and provides
in3tructions on how to process your documents.
2. caneepe of Operatiaa. , The key to performing timely reviews
is to .doi.!se t he manual .teps require~ and automate the
proceduros wherever possibl e. Additionally, the global nature of
                   Click to add JPEG file
the proce&, and the divera8 customer basi. of 8ubmitting
activities require the need for simplicity. The ReP databa.e i.
utilizing and buil ding on the capabilities of e. POWER s oftwate,
which require Rep requests to be fo r War4Qd bY fAX to a designatod
phone number, emaited to a designated email address l isted and lor
electronically through the Internet to the applic abl e ell'lO.il
address ~hich i. liated on the coversheet .
Once the coveraheet, and 8cpporting document. are processed into
WebOTF, an intell igent agent wi ll autom.tically take incoming
reques ts, create electronic folder for each request i n a.POWER.
index data 6. appropria te. insert the document s into the folder
and process the re~•• t i nto the workflow process. The
electronic tolder will be establ i shed tor a specif ic queue basket
depending on the contracting offi ce (ide ntified on t he
cover8heet) . The deeignated financial analyets wi l l retrieve the
folder from this lpecific queue basket and pe rtorm the finoncial
review ot the Rep request.
Bec ause of the various queue baakets , this provides management
parsonnel the capability to view documents and assign workload
and provide. a great tool f or planning work and more impor t antly,
allow. us to meet your ReP requ irements 1n e most t imely manner .
The financial review will be prioritized ~.ed on the geographi c
work schedule. of the contracting office baaed on appl icablo time
%ones, such 48, e ast coaet rvquirament8 are worked prior to west
coast time zones from 0600 - 07JO each day . The financial



                                                        Attachment E
reviewors have the capability to annotate comments, perform
additional indexing if needad, direct the routing to any of the
included NAVSUP Contracti ng activities .s indicated on the
coversheet and/or funding document, and other' functions ~s may ba
identified. When approved, an acceptance copy (with electronic
signature applied) will automatically c. ~.n.r.t~ ana returned
to the .u~tting activity. An email or FAX notification will be
sent advia i ng of the action t aken . Action taken . time/ date and
revltwet will De AutomAtical ly doc~ented in the folder and it
will be routed to the appropriate contracting act ivity for
Action. fte-routing path. will provide the abili ty to pa •• RCP
folders from ono Contracting ActivIty to another it initial
routing i8 not correct .
All folders will rarnain resident on the NAVSUP WabQTF d.tab• • •
tor audit purposes ond analY8 is of workload, processing
timeframes to ensure your requ i re~nt. are being processed i n a
timely manner.

  3. !yat. . ruact1on.. System data back·upa shal l be pGrformed to
  allow system restore and disa.ter recovery. Several incremental
  back-~p. will be performed daily Monday throuoh Fr iday, except
  Federal holidays. to capture changes in the data from intra-day
  transactions. Full system tapa back- ups will be done nightly,
                 Click to add JPEG file
, weekly and monthly to allow f~ll system recovery in the ovent of
  a catastrophic failure . Tho weekly and monthly back ·~p~ will De
  housed securely off-site.

with the exception of normal &y~tem maintenance, it is
anticipated that the Direct Cite Rep RevieW and Acceptance
process will be operational 24/7. If the syatQ~ become;
unava ilabl e, the system will DO restored within 8 hours .

 In the case of a failure that requires hardware repl acement or
 repair, NAVSUP will be notjfied within one business day of
 dete~nation of the problem. end provided t he recommended a c ti on
 to resolve the problem.

 For emerqent document. that require ~ediate action or cannot be
 proceSsed tbrough the norm.l WebOTF proceSl, the FISC Liaison
 Staff located at each FISC will have the authority to accopt
 Direct Cite documents. At the moat convenient time, thes e
 documents will be archived to the WebOTF database.
 ,. This SOP ia effective   &8   ot 14   Nov~r   06 until supereodod.




                                     2
Do not ~i t . on the RCP Cover Sheet - BQcauce an electronic
OCR reader 15 reading thic document into a fax aerver. All
tlel~. .bQuld ~ popul &t e4 .


  1.    ~t Di ~ea t i~ ~~:               Do no t put any  &~ce. O~ dashe&
       in   ~tween   document numbers.     ~ler        N0002404RCABOOl

  2.    ~t ~~I 00 not write any words in thh field.
       It must be a five digit numeric number. Example: Basic
       Document - 00000 Amendment Document - 00001.
  3. eoau..atiDirect ive TrPeI Kust select one of the options
     from the drop down menu . All computer-generated forms that
     are electronically approved must be approved ~ FMR. If
     you have a computer-generat@d form that was approved and
     replaces the NAVCOMPT 22i6 and NAVCOHPT 2276A, you must
     choo •• NC 2276 on the drop down menu .

  4.   ~t l      Do not use any pa renthesis . doll a r signs in
       «maunt. Example: 121,111.00          For   N~ative   amounts, type
       the tOllowing: -123,111.00

  5.                 Click to add JPEG file
        'Awt. to nBC CoIltnotiq OU1c:. . Do not type in this
       field. Choose a contra cting of tics from the drop down
       menu. Ensure you choose the FISC who will be i ssuing your
       contract.

  G. Ur geOOy . Se lect from ths drop down menu. Only select
     urgent, when you need a item and/or service within tour 141
     hours. Example : Ship will be deploying and they need a
     item and/or service to deploy.

  i. NNCl a.late4 : Click in the box.             You will only check yea,
     whe n it 1s a NHCI nqulrement .

                            Acti vity XDfo r.ation.

  8.    Activi t y )f",:   Type Actlvitiea name on (Wlding document .
        Example:      Navy Region.

  9.    Aativi ty    Addre...   Type Activity addre •• locoled on
        funding document.

  10. rlDaDci al point ot COAtaot ( POe ).          Type   n~   of financial
      POe activity
  11. POe     S~. .11 ~ess l      Type Pinancial POC'. email addre ••.




                                       3
   12. POe rax UQabert Type Financial POe'. t ax number . Huat
       be commercial phone number . Do not U•• PArenthea ia.
          Example:    312 -23 8- 8888

   13 . POe PboDe ~r, ~ Pinancial POC'. phone nwnber.
        please type your DSN number. it ava ilable. Example:
        522-2)24 Do not type DSN 1n front of number .

   14 .   '.~t ACc~t&DOe/"1.otlOD           tOI   Select either tax or email
          address from drop down menu.
  FAX %a.tructiaa.1

   1.     Fax Rep Cover Sheet, funding document , statement of work,
          and jUltlticat ion to 17031 318-2879. Pleas. en8~re the
          description is adequate for u' to make a determi nation if
          all compl i •• wi t h Time. Purpose, and Amount.

   2.      If you have roculved and OK from your tax machine, the
          document has been confirmed. please don't re8ubmit
          document it you have received an OK from the fax mAchine .

                     Click to add JPEG file
  1 . Email Rep Cover Sheot, Funding document. statament o f work
      and justification to RCPiWebOTF.orq. On your subject line,
      type eRCP Cover Sheet -,




Enel (1)




                                        4
   1.   Log into '/IIab01'P through the Internet.          URI..   181
        http: // www.webott . orq

   2.   Cli~k    on RCP   Cont~oct   Queue .

   3.    Pind your funding document. it you know what W08 • • • igned
         to you. Click on funding document lIt will be highlighted
         in Blue). Thi. will open the document and bri ng you t o
         the Rep c oversheet .

   4.    Click on related doc •.

   5.    This will bring another ar.a with a lilt of document •.
         The RCP cover sheet is usually the l.at document listed .
         Cl i ck in tbe DoX on the document you want to view .

   6.    Scroll down and click v i ew .        Thi. will open t he document
         in Acrobat .

   1.    Select Print . To clo•• out Acrobat , click tho x at the
         top and it will close it out .

   8.
                       Click to add JPEG file
         CliCK on In baskot .

   9.    Fi nd your doc umen t. Scroll down to the right ond find tho
         Workflow path . Under that box , click on Approvu And check
         the box next to t he . right .

   10. CliCK on procea..        This will exit the document out the
         workflow .


You need to 8n8Ure you cl ear out your           ba.k.~.    da i ly.     If any
amendment      CO~QS
                in while you have the baaic or any other
amen~nt still in the workflow, this will cause this document to
go into Triage or put on hold until the p r ior doc ument h.. exited
out of the workflow.




Ene l   ( 2)



                                          5
·. .. ".

                                Search Dinot ItCJI Doe\IIIeDt.


           In WebOTF . you nead to aelact the search capability from the top
           menus .

              1. Click on Document (Gray Tab at the top of the screen) .
                        •
              2. Scroll down to Search Di rect RCP . Type in what you wont to
                 search. You can search by docUltleJ'lt number. dollar amount,
                 etc . You ean aearch on one tield or many fJelda .     Once
                 you type in your field . click seorch.


              3. 'rhis wi ll bring you a I ht of documents of what W411 found.
                 To view a document. click the box next to the document
                  number .

              4. Click on wo~kflow History , if you want to see where your
                 document is in processing .

              5. Click on View to review the cover sheet .

                             Click to add JPEG file
              6. Click on Ralated docunents, it you WAnt to pull up a copy
                  ot the cover sheet , funding document, or a cceptance.
           If .your document i8 in triage, you will not be able to search by
           document number. You can try to .earch by dollar amount or
           location it the.e a rea5 are populated through the system .

           If you can't locate your file through the search capability
           Wi thin 1 hour , pleagll contact the followi ng para onne l:




           Enel (3)




                                              6
